<html>
<title> - U.S. FOREIGN POLICY TOWARD LIBYA</title>
<body><pre>[Senate Hearing 106-740]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-740

                    U.S. FOREIGN POLICY TOWARD LIBYA

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                          SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                               MAY 4, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


67-394 CC


                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

          SUBCOMMITTEE ON NEAR EASTERN AND SOUTH ASIAN AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman
JOHN ASHCROFT, Missouri              PAUL D. WELLSTONE, Minnesota
GORDON H. SMITH, Oregon              ROBERT G. TORRICELLI, New Jersey
ROD GRAMS, Minnesota                 PAUL S. SARBANES, Maryland
CRAIG THOMAS, Wyoming                CHRISTOPHER J. DODD, Connecticut

                                  (ii)

  



                            C O N T E N T S

                              ----------                              
                                                                   Page

Bernstein, Ms. Stephanie, Justice for Pan Am 103.................    19
    Prepared statement...........................................    23
Bolton, Hon. John R., former Assistant Secretary of State for 
  International Organization Affairs, and senior vice president, 
  American Enterprise Institute, Washington, DC..................    25
    Prepared statement...........................................    29
Neumann, Hon. Ronald E., Deputy Assistant Secretary of State for 
  Near Eastern Affairs, Department of State, Washington, DC......     2
    Prepared statement...........................................     6

                                 (iii)

  

 
                    U.S. FOREIGN POLICY TOWARD LIBYA

                              ----------                              


                         THURSDAY, MAY 4, 2000

                           U.S. Senate,    
               Subcommittee on Near Eastern
                           and South Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Sam Brownback (chairman of the 
subcommittee) presiding.
    Present: Senators Brownback and Torricelli.
    Senator Brownback. The hearing will come to order.
    Ambassador Neumann, welcome. Pleased to have you here.
    I think it would be appropriate at the very outset of this 
hearing if we would just have a moment of silent prayer for the 
victims of Pan Am 103 and the trial that goes on today and for 
their families. So, if you would join me in that moment, I 
would appreciate it.
    [A moment of silence observed.]
    Senator Brownback. Thank you.
    We are here today to discuss the question of U.S. policy 
toward Libya. To be frank, I would have thought there would be 
little to say on this matter at this point in time. We have got 
a trial that has begun on the case of Pan Am 103 just 
yesterday. As yet, there is no official decision on the 
question of who is responsible for the murder of 270 people, 
including 189 Americans.
    There is also a trial ongoing in Germany in the 1986 La 
Belle Disco bombing which killed two American servicemen. As 
with Pan Am 103, the Government of Libya is suspected in the 
attack.
    Unfortunately, rather than the icy cold hostility, which I 
would have expected from the U.S. Government toward Libya at 
this point in time, I perceive the slow warming of 
relationships with Libya. A couple of months ago, there was a 
mission from the Department of State to Libya to see if the 
travel ban should be lifted. Now perhaps the legal basis for 
the travel ban no longer exists. I cannot say, but I can say 
one thing for sure: Nothing has changed in the last year that 
would justify sending this message other than a change of heart 
in Washington. Qadhafi is the same dictator he ever was.
    Why would the Clinton administration want to send any 
signal to the Qadhafi regime that we are in any way satisfied 
with its conduct? Qadhafi has expressed no regret for the death 
of 270 men, women, and children. He has taken no 
responsibility. To the contrary, he has made comments 
indicating that he believes the world is coming around to his 
position.
    It is true the Clinton administration has not gone as far 
as many European governments who seem unfazed by terrorists 
murdering scores of their own citizens. On the other hand, I am 
very much concerned there is a lack of commitment to finding 
and punishing the murderers in this world. I am very much 
afraid, in fact, that the Clinton administration and the United 
Nations would like this trial at Camp Zeist to be the end of 
the road.
    Indeed, though Secretary of State Albright has gone out of 
her way to assure that that is not the case, I have some 
suspicion that the Secretary General of the United Nations may 
well have told Colonel Qadhafi that he need not fear from this 
trial in The Netherlands. It will not destabilize his 
government. If that is not the case, why will the Secretary 
General and the Secretary of State not release the contents of 
Mr. Annan's letter to Colonel Qadhafi cajoling him into 
cooperating in the trial now taking place. How, I wonder, could 
a finding that the Government of Libya planned and ordered its 
operatives to execute the downing of Pan Am 103 do anything but 
destabilize the Qadhafi regime?
    The more I think about this, the more troubled I get. We 
are not talking about anything abstract. We are talking about 
the wanton murder of men, women, little children, and babies. 
Think of them. Think of their families, the grief that they go 
through and the constant torment that they have. The 189 
American families deserve for their Government to be relentless 
in hunting down the terrorists who so horribly killed their 
loved ones.
    Now maybe, Ambassador Neumann, you will have a different 
story to tell. I hope so. What I want to get at here today is 
where is the administration going with policy toward Libya. Why 
is it moving, if it is moving, at this time with these trials 
undergoing at the present time? This seems to be happening in 
many places around the world, but I want to focus today on what 
is taking place in Libya.
    So, I look forward to your testimony. I think there will be 
some other members joining us as we go along. Then I have a 
number of questions that I would like to ask you as well. Thank 
you for joining us today.

STATEMENT OF HON. RONALD E. NEUMANN, DEPUTY ASSISTANT SECRETARY 
    OF STATE FOR NEAR EASTERN AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Neumann. Thank you, Senator Brownback. I 
appreciate the invitation to speak to you on current U.S. 
policy toward Libya and I welcome the opportunity to address a 
topic of interest to many members. We have achieved a 
significant success in meeting long-established goals, but this 
is a continuing story whose ending is as yet unclear.
    U.S. policy and policy goals vis-a-vis Libya have remained 
consistent through three administrations. Our goals have been 
to end Libyan support for terrorism, prevent Tripoli's ability 
to obtain weapons of mass destruction, and contain Qadhafi's 
regional ambitions. Since Lockerbie, we have added additional 
aims, including bringing the persons responsible to justice. I 
would like to discuss current developments in the context of 
U.S. policy goals and unilateral and multilateral efforts on 
behalf of these goals and consider what remains to be done.
    Prior to the Qadhafi regime, we enjoyed a generally warm 
relationship with the Libyans and pursued policies centered on 
our interests in operating at Wheelus Air Force Base with its 
4,600 Americans, the considerable U.S. oil interests, and other 
key issues.
    After Qadhafi's 1969 coup, the relationship quickly soured. 
Concerns about Libya's foreign policies came to dominate our 
policymaking. Chief among these concerns are state sponsorship 
of terrorism, support for groups violently opposed to Israel 
and the peace process, preventing of Tripoli's efforts to 
obtain weapons of mass destruction, and unhelpful activities in 
neighboring African states. Since that time, the U.S. policy 
agenda toward Libya has focused on these concerns.
    Although our commercial relationship with Libya flourished 
throughout the 1970's, the political relationship deteriorated, 
marked by confrontation and by intermittent reconciliation 
attempts on both sides. In the 1980's, we ended the 
longstanding commercial relationship and rejected any 
possibility of reconciliation so long as Libya pursued its 
policies of concern. We imposed sanctions piece-by-piece in 
response to Libyan support for terrorism, beginning with the 
disapproval of all further military sales to Libya and the 
designation of Libya as a state sponsor of terrorism in 1979. 
We ultimately imposed comprehensive sanctions on all commercial 
and financial transactions with Libya under an Executive order 
in 1986. The unilateral sanctions regime against Libya has 
remained one of the most comprehensive.
    Also, in 1986, we identified Libya as being responsible for 
the La Belle Disco bombing and in retaliation bombed select 
military and terrorist-related targets in Tripoli and Benghazi. 
Our judgment on Libyan responsibility for that bombing was 
recently given additional credibility by new testimony in the 
Berlin trial of the La Belle bombing suspects.
    In the wake of the La Belle bombing, our European allies 
finally began to coordinate efforts against Libya. The EU 
resolved to reduce Libyan diplomatic presence abroad, embargo 
arms sales to Libya, and encourage policy and security 
cooperation against Libyan support for terrorism.
    We obtained U.N. Security Council support against Libya for 
its sponsorship of terrorism following evidence of Libyan 
involvement in the tragic 1988 Pan Am 103 and 1989 UTA 772 
bombings. In 1992 and 1993, the Security Council passed a 
series of resolutions calling on Libya to surrender the 
suspects, accept responsibility for the actions of its 
officials, pay appropriate compensation, disclose all it knew 
of the crime, and cooperate with the criminal investigation, 
cease all forms of terrorist action and assistance to terrorist 
groups, and prove its renunciation of terrorism by concrete 
actions. The Security Council imposed civil aviation, 
financial, and diplomatic sanctions against Libya.
    Carefully targeted U.N. sanctions against Libya were for 
many years one of the most successful multilateral sanctions 
regimes. Rigorously observed sanctions succeeded in isolating 
Libya and limiting its access to dollars and other hard 
currencies for almost a decade. However, 2 years ago, support 
for the international sanctions began to fade. Deliberate 
violations by some states were increasing. We found little 
support to upgrade or even maintain the international 
sanctions.
    For 10 years, the United States made every effort to bring 
the perpetrators of the terrorist bombing of Pan Am 103 to 
justice. Libya's surrender of the Pan Am 103 suspects came as a 
result of our intensive efforts to bring them to trial. 
Beginning in the fall of 1997, along with the British and the 
Dutch, we developed a detailed plan for a trial before a 
Scottish court seated in The Netherlands. After we unveiled the 
plan in August 1998, the U.N. Security Council unanimously 
endorsed the initiative and again urged Libya to surrender the 
suspects. International opinion welcomed this proposal. Libya 
finally turned over the suspects under the terms we had laid 
out. The U.S. engaged in no negotiations and placed no 
restrictions on the prosecutors' freedom to follow the 
evidence. The Scottish trial in The Netherlands will be a 
genuine criminal proceeding, conforming with the rules and 
traditions of Scottish jurisprudence, and the prosecution will 
follow the evidence wherever it leads. Since the Libyan 
suspects' surrender, they have awaited trial in a Scottish jail 
in The Netherlands. The trial began yesterday and is expected 
to take some time.
    Over time, faced with the U.N. and the U.S. sanctions, as 
well as the attendant political isolation, Libya has reduced 
its support for terrorism and sought to distance itself from 
terrorist groups. As reported in Patterns of Global Terrorism 
for the last 2 years, Libya has not been implicated in any 
international terrorist act for several years and has taken 
important steps.
    Libya has expelled the Abu Nidal Organization, uprooting 
its infrastructure and seeking to eliminate any ANO presence in 
Libya. It has cooperated with other intelligence services in 
the region to deport remaining ANO members from Libya. 
Ironically, the ANO has publicly threatened terrorist 
retaliation against Libya.
    In addition to withdrawing its support from Palestinian 
groups that oppose the peace process, Libya has thrown its 
support to Chairman Arafat and the Palestinian Authority. The 
Libyan Government has told all Palestinians that the 
Palestinian Authority is the only address for their concerns. 
Given Libya's status as one of the original Arab radical 
states, this support for the Palestinian Authority represents 
an historic policy shift toward peace that we should all 
welcome.
    In the last year, Libya has imposed visa restrictions to 
limit the ability of terrorists to enter its territory as a 
haven.
    Libya has also cooperated with Egypt, Jordan, and Yemen 
against terrorist groups. In the context of the Arab League 
Interior Ministers agreement to cooperate on counter-terrorism, 
we have seen the extradition of a number of suspected 
terrorists between Libya and Jordan and Libya and Yemen.
    While we recognize the positive steps Libya has taken, a 
number of issues remain on which Libya must act. One key 
question is what else remains for Libya to do on terrorism to 
show that the break is permanent and not just opportunistic. 
Libya should comply with the U.N. Security Council resolutions, 
including payment of appropriate compensation, acceptance of 
responsibility for the actions of its officials, renunciation 
of and an end to support for terrorism, and cooperation with 
the Pan Am 103 trial and investigation. In October 1999, Libya 
allowed the Scottish investigators to travel to Libya and 
obtain access to requested witnesses and documents. We will 
insist that any similar future request be granted and that 
Libyan witnesses be able to testify in The Netherlands 
unimpeded. Such Libyan cooperation is an explicit U.N. Security 
Council requirement before U.N. sanctions are lifted. It is 
also a concrete way for Libya to demonstrate that it has 
changed its policy, not just its rhetoric on terrorism.
    We want to see Libya sever all remaining ties with and 
support for terrorist groups. That would include terminating 
all contacts, travel on Libyan soil, and financial assistance. 
We also seek clear and concrete Libyan support for the peace 
process, including the underlying principles of the Madrid 
process. Such steps would be a concrete, definitive way for 
Libya to demonstrate its abandonment of violent opposition to 
the peace process and cessation of its support for opponents of 
peace. In this regard, we are closely watching Libya's talks 
with the EU and possible participation, with Israel and the 
Palestinian Authority, in the Barcelona process. Looking to the 
future, we would like Libya to join and comply with certain 
international anti-terrorism conventions, which it has 
indicated a willingness to do.
    We remain concerned about Libyan programs to develop 
weapons of mass destruction and missile delivery systems. 
British authorities at London's Gatwick Airport recently 
intercepted Scud missile parts interdicted at Gatwick bound for 
Libya. We seek to prevent Libya's efforts to acquire weapons of 
mass destruction [WMD] and delivery systems and encourage other 
countries to do the same. Multilateral efforts to contain these 
Libyan programs have thus far achieved substantial success. We 
would like to see Libya join the Chemical Weapons Convention 
and comply with the CWC and the Biological Weapons Convention. 
These actions would signal its seriousness of purpose and be an 
important, concrete step toward responsible behavior.
    Libya's recent record on intervention outside its borders 
is less clear and requires close attention. Libya continues to 
be deeply engaged in Africa, including Sierra Leone, Congo, 
Ethiopia-Eritrea, and Sudan. We want to see it play a 
constructive role. For example, Libya has joined with Egypt to 
push for a negotiated resolution of the longstanding conflict 
in Sudan. We support the mediation efforts led by East African 
states under the Inter-Governmental Authority on Development, 
because its Declaration of Principles spells out the key issues 
which must be resolved for the achievement of a just, lasting 
settlement. At the same time, we have stepped up efforts to 
cooperate with Egypt in the search for peace as a single, 
unified process stands the best change of achieving a 
settlement in the Sudan. However, given the long history of 
dangerous intervention by Libya outside its borders, as well as 
more recent reports of providing arms throughout the region, we 
will continue to take steps to ensure that Libya seeks to 
resolve, rather than aggravate, regional conflicts.
    There has been intense press speculation and some 
congressional interest about possible changes to travel-related 
restrictions for Libya. In March, the Secretary authorized a 
consular trip to Libya for the specific, limited purpose of 
assessing whether there continues to be an imminent danger to 
U.S. travelers. An imminent danger was the factual, legal basis 
for imposing a restriction on the use of U.S. passports for 
travel to, in, or through Libya in 1981. Based on all reports, 
we believe it was appropriate to assess the situation on the 
ground for ourselves. The Department is still reviewing the 
trip findings, as well as other relevant information, including 
reports from European diplomats, our protecting power, and 
travelers to Libya. Speculation about the outcome of this 
review would be premature; however, knowing of your interest in 
the matter, we will continue to stay in close touch with you on 
this issue.
    On our key concerns, terrorism, opposition to Middle East 
peace, regional intervention, Libya no longer poses the threat 
it once did. On WMD and missiles, our efforts to impede Libya's 
programs have had substantial success. That said, we must 
continue to watch Libya closely and will maintain pressure 
until all of these concerns are fully addressed. Our goal 
continues to be to deter Libyan policies of concern. An 
improved bilateral relationship is not in itself an end. We 
will oppose lifting U.N. sanctions against Libya until we are 
satisfied that Libya has met all the relevant U.N. Security 
Council requirements. The provisions of the Iran and Libya 
Sanctions Act regarding investment in Libya's petroleum sector 
will continue to be considered until, as the statute 
prescribes, the President has determined and certified to 
Congress that the U.N. Security Council resolution requirements 
have been met. Also until that time, we expect to maintain core 
unilateral economic sanctions prohibiting U.S.-Libyan business.
    Again, I would like to thank you, Mr. Chairman, for this 
opportunity to appear in front of the subcommittee on these 
important issues and welcome the opportunity to address any 
specific questions you might have.
    [The prepared statement of Ambassador Neumann follows:]

              Prepared Statement of Hon. Ronald E. Neumann

    I appreciate the invitation to speak to you on current U.S. policy 
toward Libya and welcome the opportunity to address a topic of interest 
to many members. We have achieved significant success in meeting long 
established goals, but this is a continuing story whose ending is as 
yet unclear.
    U.S. policy and policy goals vis-a-vis Libya have remained 
consistent through three Administrations. Our goals have been to end 
Libyan support for terrorism, prevent Tripoli's ability to obtain 
weapons of mass destruction and contain Qadhafi's regional ambitions. 
Since Lockerbie, we have added additional aims, including bringing the 
persons responsible to justice. I would like to discuss current 
developments in the context of U.S. policy goals and unilateral and 
multilateral efforts on behalf of these goals, and consider what 
remains to be done.
    Prior to the Qadhafi regime, we enjoyed a generally warm 
relationship with the Libyans and pursued policies centered on our 
interests in operations at Wheelus Air Force Base with its 4,600 
Americans the considerable U.S. oil interests, and other key issues.
    After Qadhafi's 1969 coup, the relationship quickly soured. 
Concerns about Libya's foreign policies came to dominate our 
policymaking. Chief among these concerns are state sponsorship of 
terrorism, support for groups violently opposed to Israel and the Peace 
Process, preventing of Tripoli's efforts to obtain weapons of mass 
destruction and unhelpful activities in neighboring African states. 
Since that time, the U.S. policy agenda toward Libya has been focused 
on these concerns.
    Although our commercial relationship with Libya flourished 
throughout the 1970s, the political relationship deteriorated, marked 
by confrontation and by intermittent reconciliation attempts on both 
sides. In the 1980s, we ended the long-standing commercial relationship 
and rejected any possibility of reconciliation so long as Libya pursued 
its policies of concern. We imposed sanctions piece-by-piece in 
response to Libyan support for terrorism, beginning with the 
disapproval of all further military sales to Libya and the designation 
of Libya as a state sponsor of terrorism in 1979. We ultimately imposed 
comprehensive sanctions on all commercial and financial transactions 
with Libya under an Executive order in 1986. The unilateral sanctions 
regime against Libya has remained one of the most comprehensive.
    Also, in 1986, we identified Libya as responsible for the La Belle 
Disco bombing and in retaliation bombed select military and terrorist-
related targets in Tripoli and Benghazi. Our judgment on Libyan 
responsibility for the bombing was recently given additional 
credibility by new testimony in the Berlin trial of the La Belle 
bombing suspects.
    In the wake of the La Belle bombing, our European allies finally 
began to coordinate efforts against Libya. The EU resolved to reduce 
Libyan diplomatic presence abroad, embargo arms sales to Libya and 
encourage policy and security cooperation against Libyan support for 
terrorism.
    We obtained U.N. Security Council support against Libya for its 
sponsorship of terrorism following evidence of Libyan involvement in 
the tragic 1988 Pan Am 103 and 1989 UTA 772 bombings. In 1992 and 1993, 
the Security Council passed a series of resolutions calling on Libya to 
surrender the suspects, accept responsibility for the actions of its 
officials, pay appropriate compensation, disclose all it knew of the 
crime and cooperate with the criminal investigation, cease all forms of 
terrorist action and assistance to terrorist groups, and prove its 
renunciation of terrorism by concrete actions. The Security Council 
imposed civil aviation, financial, and diplomatic sanctions against 
Libya.
    Carefully targeted, U.N. sanctions against Libya were for many 
years one of the most successful multilateral sanctions regimes. 
Rigorously observed sanctions succeeded in isolating Libya and limiting 
its access to dollars and other hard currencies for almost a decade. 
However, two years ago, support for the international sanctions began 
to fade. Deliberate violations by some states were increasing. We found 
little support to upgrade or even maintain the international sanctions.
    For ten years, the United States made every effort to bring the 
perpetrators of the terrorist bombing of Pan Am 103 to justice. Libya's 
surrender of the Pan Am 103 suspects came as a result of our intensive 
efforts to bring them to trial. Beginning in the fall of 1997, along 
with the British and the Dutch, we developed a detailed plan for a 
trial before a Scottish court seated in The Netherlands. After we 
unveiled the plan in August 1998, the U.N. Security Council unanimously 
endorsed the initiative and again urged Libya to surrender the 
suspects. International opinion welcomed this proposal. Libya finally 
turned over the suspects, under the terms we had laid out. The U.S. 
engaged in no negotiations and placed no restrictions on the 
prosecutors' freedom to follow the evidence. The Scottish trial in The 
Netherlands will be a genuine criminal proceeding, conforming with the 
rules and traditions of Scottish jurisprudence, and the prosecution 
will follow the evidence wherever it leads. Since the Libyan suspects' 
surrender, they have awaited trial in a Scottish jail in The 
Netherlands. The trial began yesterday and is expected to take some 
time.
    Over time, faced with U.N. and U.S. sanctions, as well as the 
attendant political isolation, Libya has reduced its support for 
terrorism and sought to distance itself from terrorist groups. As 
reported in Patterns of Global Terrorism for the last two years, Libya 
has not been implicated in any international terrorist act for several 
years and has taken important steps.
    Libya has expelled the Abu Nidal Organization, uprooting its 
infrastructure and seeking to eliminate any ANO presence in Libya. It 
has cooperated with other intelligence services in the region to deport 
remaining ANO members from Libya. Ironically, the ANO has publicly 
threatened terrorist retaliation against Libya.
    In addition to withdrawing its support from Palestinian groups that 
oppose the Peace Process, Libya has thrown its support to Chairman 
Arafat and the Palestinian Authority. The Libyan Government has told 
all Palestinians that the Palestinian Authority is the only address for 
their concerns. Given Libya's status as one of the original Arab 
radical states, this support for the Palestinian Authority represents 
an historic policy shift toward peace that we should all welcome.
    In the last year, Libya has imposed visa restrictions to limit the 
ability of terrorists to enter its territory as a haven.
    Libya has also cooperated with Egypt, Jordan and Yemen against 
terrorist groups. In the context of the Arab League Interior Ministers 
agreement, to cooperate on counter-terrorism, we have seen the 
extradition of a number of suspected terrorists between Libya and 
Jordan and Libya and Yemen.
    While we recognize positive steps Libya has taken, a number of 
issues remain on which Libya must act. One key question is what else 
remains for Libya to do on terrorism to show that the break is 
permanent and not just opportunistic. Libya should comply with the U.N. 
Security Council Resolutions, including payment of appropriate 
compensation, acceptance of responsibility for the actions of its 
officials, renunciation of and an end to support for terrorism, and 
cooperation with the Pan Am 103 investigation and trial. In October, 
1999, Libya allowed the Scottish investigators to travel to Libya and 
obtain access to requested witnesses and documents. We will insist that 
any similar, future requests be granted and that Libyan witnesses be 
able to testify in The Netherlands unimpeded. Such Libyan cooperation 
is an explicit U.N. Security Council requirement, before U.N. sanctions 
are lifted. It is also a concrete way for Libya to demonstrate that it 
has changed its policy, not just its rhetoric, on terrorism.
    We want to see Libya sever all remaining ties with and support for 
terrorist groups. That would include terminating all contacts, travel 
on Libyan soil, and financial assistance. We also seek clear and 
concrete Libyan support for the Peace Process, including the underlying 
principles of the Madrid process. Such steps would be a concrete, 
definitive way for Libya to demonstrate its abandonment of violent 
opposition to the Peace Process and cessation of its support for 
opponents of peace. In this regard, we are closely watching Libya's 
talks with the EU and possible participation, with Israel and the 
Palestinian Authority, in the Barcelona Process. Looking to the future, 
we would like Libya to join and comply with certain international anti-
terrorism conventions, which it has indicated a willingness to do.
    We remain concerned about Libyan programs to develop weapons of 
mass destruction (WMD) and missile delivery systems. British 
authorities at London's Gatwick Airport recently intercepted Scud 
missile parts interdicted at Gatwick bound for Libya. We seek to 
prevent Libya's efforts to acquire WMD and delivery systems and 
encourage other countries to do the same. Multilateral efforts to 
contain these Libyan programs have, thus far, achieved substantial 
success. We would like to see Libya join the Chemical Weapons 
Convention and comply with the CWC and the Biological Weapons 
Convention. These actions would signal its seriousness of purpose and 
be an important, concrete step toward more responsible behavior.
    Libya's recent record on intervention outside its borders is less 
clear and requires close attention. Libya continues to be deeply 
engaged in Africa, including Sierra Leone, Congo, Ethiopia-Eritrea, and 
Sudan. We want to see it play a constructive role. For example, Libya 
has joined with Egypt to push for a negotiated resolution of the 
longstanding conflict in Sudan. We support the mediation efforts led by 
East African states under the InterGovernmental Authority on 
Development, because its Declaration of Principles spells out the key 
issues which must be resolved for achievement of a just, lasting 
settlement. At same time, we have stepped up effort to cooperate with 
Egypt in the search for peace, as a single, unified process stands the 
best chance of achieving a settlement in Sudan. However, given the long 
history of dangerous intervention by Libya outside its borders as well 
as more recent reports of providing arms throughout the region, we will 
continue to take steps to ensure that Libya seeks to resolve, rather 
than aggravate, regional conflicts.
    There has been intense press speculation and some congressional 
interest about possible changes to travel-related restrictions for 
Libya. In March, the Secretary authorized a consular trip to Libya for 
the specific, limited purpose of assessing whether there continues to 
be an ``imminent danger'' to U.S. travelers. An ``imminent danger'' was 
the factual, legal basis for imposing a restriction on the use of a 
U.S. passport for travel to, in, or through Libya in 1981. Based on all 
reports, we believed it was appropriate to assess the situation on the 
ground for ourselves. The Department is still reviewing the trip 
findings as well as other relevant information, including reports from 
European diplomats, our Protecting Power, and travelers to Libya. 
Speculation about the outcome of this review would be premature; 
however, knowing of your interest in the matter, we will continue to 
stay in close contact with you on this issue.
    On our key concerns--terrorism, opposition to Middle East peace, 
and regional intervention--Libya no longer poses the threat it once 
did. On WMD and missiles, our efforts to impede Libya's programs have 
had substantial success. That said, we must continue to watch Libya 
closely and will maintain pressure until all of these concerns are 
fully addressed. Our goal continues to be to deter Libyan policies of 
concern. An improved bilateral relationship is not, in itself, an end. 
We will oppose lifting U.N. sanctions against Libya until we are 
satisfied that Libya has met all the relevant U.N. Security Council 
requirements. The provisions of the Iran and Libya Sanctions Act 
regarding investment in Libya's petroleum sector will continue to be 
considered until, as the statute prescribes, the President has 
determined and certified to Congress that the UNSCR requirements have 
been met. Also, until that time, we expect to maintain core unilateral 
economic sanctions prohibiting U.S.-Libyan business.
    Again I would like to thank you, Mr. Chairman, for this opportunity 
to appear in front of the subcommittee on these important issues, and 
would welcome the opportunity to address any specific questions you 
might have.

    Senator Brownback. Thank you, Ambassador. I appreciate the 
statement.
    Libya remains on the official list of state sponsors of 
terrorism? Is that correct?
    Ambassador Neumann. They do remain on the list. It just 
came out last week or Monday? Last week. The list came out 
again. It is an annual report and Libya still figures on the 
list.
    Senator Brownback. So, it is still in our estimation a 
state sponsor of terrorism. Is that correct?
    Ambassador Neumann. It is still a state sponsor of 
terrorism, Mr. Chairman, although it has not participated, so 
far as we know, in any active act of terrorism in the last 
couple of years.
    Senator Brownback. In March, the Secretary of State 
announced that she was sending a team to Libya to review the 
ban on travel of U.S. citizens. Now, this was seen by the 
Libyan Government and by a number of U.S. citizens as an 
overture that could lead to a warming of relations. I know the 
State Department has since said the travel ban review has 
nothing to do with the Pan Am trial or with the OPEC meeting 
that was soon coming up in Vienna. But can you explain why, 
after the ban was put in place in 1981, the administration 
decided to review it just weeks before the trial and just a 
week ahead of this OPEC meeting?
    Ambassador Neumann. Yes, Mr. Chairman, I kind of thought 
you might ask that question.
    The ban--it is actually not a ban. It is a restriction on 
the use of passports, but that is a technical issue. The law on 
this is fairly specific and has made the point that Americans' 
freedom to travel is to be restricted only for reasons of 
security, which includes the existence of a state of war 
between the United States and the country in question, ongoing 
armed conflict, or the threat of imminent danger to American 
citizens. It is not a sanction as the rest of the unilateral or 
multilateral sanctions are.
    In the very long period of our strained lack of relations 
with Libya, we have considered regularly that there was a 
threat to Americans who traveled in Libya, or could be, because 
of the behavior of the Libyans. Over the last year or 2, as 
Libyan policy on terrorism has altered, particularly after the 
suspected Pan Am 103 bombers were turned over and the number of 
foreign travelers increased, the evidence and the record of 
what was happening in Libya seemed to us to call into question 
whether we were acting consistent with the intent of that law.
    That question came up initially back in November when the 
Secretary renewed the restriction. The restriction has to be 
renewed every year or it expires. She looked at it then but 
felt that we still did not have a clear picture. The question 
continued to reoccur. The trial obviously is going to go on for 
a very long time, possibly a year or more. I do not know that 
there is going to be a perfect time, nor is there a decision 
yet. But the Secretary has treated this as a very serious 
question and felt that she did have to look at the intent, as 
we understood it, of not restricting Americans' freedom to 
travel for political purposes unless there was a question of 
safety. But she felt that she also wanted an on-the-ground 
appraisal, and she sent the consular team to get it. They have 
come back. That report is still being considered. It is still 
under review in the Department.
    Because of the nature of the statute, we did not consider 
it as part of the sanctions regime. It is not. We do not 
consider it as a political signal to Libya. The Libyans are 
happy to make whatever they can out of it. We were very careful 
in the team as well. We sent only consular and security 
officials. We sent nobody who has a political brief or 
responsibility, nor did we discuss political subjects with the 
Libyans.
    Senator Brownback. I thought you would answer that way as 
well with the question that I had.
    The travel ban has been in place for nearly 20 years. The 
administration has great discretion on when it considers these 
sorts of matters. The timing of this seems quite either odd or 
insensitive given the trial taking place at this point in time. 
I would sure hope that the administration's discretion and 
consideration of this would also take into consideration these 
other factors because you could have considered this anytime 
that the administration has been in office, and here you are 
just within weeks of the trial, of the OPEC meeting. It seems 
either odd or insensitive.
    I want to focus you on another question. The administration 
has stated that Qadhafi did not receive assurances from the 
U.S. or the U.N. that prosecutors in the upcoming trial would 
focus only on the two accused and not possible Libyan 
Government involvement in the bombing.
    At the same time, the administration has refused to release 
a letter from Kofi Annan to Qadhafi to the Members of this body 
or to family members that have been impacted. When can I assure 
the victims' family members present here today that this letter 
will be released?
    Ambassador Neumann. Thank you, Mr. Chairman. I thought we 
would get that question also.
    The letter I think belongs in a context. First of all, as I 
have said, we have made no deal. There is nothing which 
prohibits the prosecutors from following the evidence wherever 
they want to go.
    Just to pause for a moment, remember when the resolutions 
were passed, we still had to convince Libya and the United 
Nations had to convince Libya to turn over the suspects. Now, 
we have a pretty clear idea in this country and in Great 
Britain what we mean by a fair trial. I have no particular 
reason to believe that Colonel Qadhafi, who has probably never 
seen a fair trial, let alone participated in one, has any 
similar conception of jurisprudence. And the questions which 
were coming back through the United Nations, which we had asked 
to be the intermediary to try to get these people out, 
suggested a near paranoia that they would be used or 
manipulated in some form of Stalinist type of show trial.
    What we said in public and what we said to the Secretary 
General were two things, and we were quite explicit and kept 
them quite distinct. One was that we would not use these people 
for political purposes. That meant we would not use them as 
part of some political circus, some Stalinist type of show 
trial. And the other statement we made, which was also true and 
also correct, was that the prosecutors were free to follow the 
evidence wherever it led. There was no deal and there was no 
restriction on them. That eventually satisfied the Libyans and 
they turned over the two suspects.
    Now, the letter itself is a U.N. document, a document of 
the Secretary General. We have to work with the Secretary 
General on a whole variety of issues, and confidentiality 
respecting his documents and his request is part of that. We 
have not objected ourselves to turning over the letter, but it 
is his letter. We also have had people from the administration 
briefing both Members and staff on the contents of that letter, 
and we can do more of that. I know that the Secretary General 
has also been asked directly by a Member of Congress if he 
would hand the letter over and he declined to do so.
    I do not think it is probably the practice of Members 
generally to hand over correspondence of friends, but if they 
do, I am sure they do it up here, as we would do it, with the 
clear understanding that that is going to have an impact on 
your ability to have confidential dealings with the same person 
in the future. And that is something which is important to the 
larger handling of our diplomatic business, and that is the 
reason that we will not turn over the Secretary General's 
letter without his consent.
    Senator Brownback. Are you pressuring the U.N. Secretary 
General to release the letter?
    Ambassador Neumann. We have raised the question with him, 
as did a Member of Congress, and he has declined to turn it 
over.
    Senator Brownback. I think there is a little difference, at 
least there is in my mind, whether I raise the issue with 
somebody or I really press them that this should be released. 
We have families that have lost loved ones that feel, rightly 
so, very strongly about this and want to get to the bottom of 
what is happening to their family members. Are you just raising 
it or are you actually pressing the U.N. to release this letter 
to the family members?
    Ambassador Neumann. We have raised it with him, but we have 
not gone beyond that.
    Senator Brownback. Well, I would submit to you you should 
aggressively press this. I am sure you have met with a number 
of the families and I would hope you would feel the passion for 
some sort of clarity when others are dealing with their lives 
and the lives of their family members. I would hope you would 
press the U.N. very aggressively to release this to them where 
you have got their family members that were killed.
    Ambassador Neumann. Mr. Chairman, we will re-raise the 
question. I think I have to say in all honesty that I doubt 
personally whether any single document is going to lay to rest 
the suspicion which is out there. But I can say with complete 
confidence that there is no deal. There is nothing which 
restricts the prosecutors. I find it a little odd that people 
actually think that one could manipulate a Scottish court in 
this way. I do not think one could personally, but maybe I live 
in a different world. But the fact is there is no deal. There 
is nothing which limits them. We have said that. We have said 
at the highest levels of this Government. The previous Lord 
Advocate of Scotland has said it, and I think you will see it 
in the conduct of the trial.
    Senator Brownback. Well, I would suggest to you that it 
does not seem odd at all that if you have got a primary piece 
of evidence about whether there is a deal or no deal and it is 
not released, that that creates its own suspicions and a great 
deal of them. This would be in the Government's best interest, 
in honesty and trying to allay these fears, to get that out to 
them because otherwise you just ask for that sort of suspicion.
    Ambassador Neumann. I fully take your point, Mr. Chairman.
    Senator Brownback. I note that Colonel Qadhafi thinks this 
is not about Libya. Here is an interview that he did in Sky 
News on the eve of the Lockerbie trial. Here are some of his 
quotes. This is from Colonel Qadhafi in this interview he did. 
``By and large, the responsibility, as far as this matter is 
concerned, is an individual one,'' said Colonel Qadhafi. ``The 
court is sitting to judge them, not whether they are Libyan 
agents. The court is sitting to decide if they are guilty or 
not.'' He sure does not think the trail is going to press 
toward him in this.
    I would hope that our position will be we will follow this 
trail relentlessly wherever it goes.
    Ambassador Neumann. Mr. Chairman, first of all, that is our 
position. We will follow the evidence wherever it goes.
    Second, I noted that interview this morning myself, and I 
can simply say to you that I have not a clue what Colonel 
Qadhafi is talking about, but I attach no credibility 
whatsoever to that statement of views. On the other hand, if I 
were in Colonel Qadhafi's shoes, that is the position that I 
would, of course, be taking myself, as I think would any of the 
rest of us.
    Senator Brownback. I want to turn this over to Senator 
Torricelli.
    But I guess what probably troubles me the most is it seems 
that the number of hearings that I have had here, that there 
seems to be a growing pattern of a willingness to try to engage 
nations that we have had very difficult relations or lack of 
relations with around the world here toward the end of this 
administration and a willingness to push aside the very 
sticking points as to why we have had these difficult relations 
or lack of relations. That is troubling to me because if you 
try to build the relationship without dealing with the 
fundamental problem between the two, that is not going to last. 
It is not going to be sustainable, and you are going to do it 
at a great price of harm to our standing and our standing for 
principles around the world and any sort of lasting 
relationship that you just say, well, we are going to avoid 
that nasty subject or we are going to try to kind of paper over 
it or shovel it aside while we try to go on.
    That is not going to work. That is not going to be 
sustainable, and it does injustice to things that this country 
has stood for for a long time. I would hope the administration 
would not pursue that form of policy with Libya, with Iran, 
toward Iraq, toward Cuba, any nations around the world with 
which we have difficult problems.
    Ambassador Neumann. May I respond to that, Mr. Chairman? 
Because I think you have touched on an element which is 
absolutely central to the consideration that you have asked me 
to come here for today because I think were we to pursue the 
kind of policy that some have talked about, pushing aside, 
ignoring these interests, that would be quite wrong.
    But what I am here to tell you today is not only are we not 
doing that, but I think in fact that we have had a considerable 
success, for which, despite ongoing doubts and questions, one 
might even give us some credit. Libya has moved out of active 
perpetration of terrorist actions. I do not know whether it 
will stay there. That is one of the questions that we are 
raising and looking at hard, but that is protecting American 
lives.
    Libya has cut ties with, for sure, some terrorist 
organizations, possibly others. That is again something which 
needs investigation, but that is a success.
    Libya has moved from active sponsorship of radical 
Palestinian groups which were dedicated to overthrowing the 
peace process to an active support of Chairman Arafat's 
Palestinians in the peace talks. That is a success.
    The two bombing suspects are out and are under trial when 
for 10 years they were not. And that too is a success.
    None of those steps that I have referred to as successes 
are the end of the process, nor are we arguing they are or 
asserting they are. All I am saying to you is that I believe we 
have had a substantial measure of progress to date, that we 
have been very realistic and very hard-headed in looking at 
what is going on, that we have given very little to Libya in 
return, and that we are continuing to be very methodical, very 
hard-headed, very clear-sighted in looking at what goes on. And 
the story is not over, and we do not have the assurances we 
want in a whole series of things, cooperation with the trial, 
payment of compensation. We are continuing to hold all those 
things up as essential steps that Libya has to perform. I think 
that is a correct policy and it has been the policy of three 
administrations going back quite a ways.
    So, that is simply what I wanted to say, that I think it 
has been to date--and I emphasize the ``to date''--a success 
and it is being handled very, very coldly. It is not a policy 
of warming up for the sake of warming up. There is not even 
that much warming up in it.
    Thank you for letting me make those comments.
    Senator Brownback. And I appreciate your making those 
comments. I would also note that they remain a part of an 
exclusive club of seven state sponsors of terrorism.
    Ambassador Neumann. Absolutely.
    Senator Brownback. I have been in southern Sudan with 
troops saying that there have been Libyan troops fighting on 
the other side. Now, I did not witness, nor can I verify that 
that is the case. And we have these trials that continue to 
take place where you have got 189 U.S. families. There may be 
some progress. There is a substantial distance yet to travel.
    Senator Torricelli.
    Senator Torricelli. Thank you, Mr. Chairman, and thank you 
very much for holding this hearing.
    Mr. Chairman, there are few qualities I admire more about 
the American people than our eternal optimism, but the belief 
that the United States is ever going to witness a reformation 
of the policies, the personalities of the Governments of North 
Korea or Cuba or Libya or Iraq is a triumph of hope over 
reality. The reality is that we are not going to witness 
changes. Month by month, we may witness different levels of 
activities, but Muammar Qadhafi is a defined individual with a 
set agenda that is never going to change. It is enormously 
damaging to the interests of this country that he ever received 
confusing signals that we are prepared to change our policies 
absent a fundamental change in his government. That is not only 
something true of Libya. It is true of North Korea and Iraq and 
Cuba and a variety of these other rogue nations.
    But this is a consistent problem with American foreign 
policy. We go toe to toe with these outlaw regimes. They 
institute little or modest changes and we announce or initiate 
reviews of policy, providing no incentive whatsoever for 
changes in the regimes.
    I want to make certain that the administration understands 
the bipartisan view of the Senate on the issue specifically of 
Libya. Are you familiar with Senate Resolution 287?
    Ambassador Neumann. That was the one passed a week ago 
with----
    Senator Torricelli. It was. Let us make clear that we 
understand where the institution resides on this.
    One, Libya's refusal to accept responsibility for its role 
in terrorist attacks against United States citizens suggests an 
imminent danger to the physical safety of United States 
travelers. That appears to me to be clear. If Libya refuses to 
acknowledge that its agents killed American citizens through 
the destruction of an aircraft, does not change personnel, does 
not change a policy, does not hold its own people responsible, 
then that terrorist act is a continuing policy. Therefore, by 
definition, Americans would continue to be in danger. There 
being no intervening event, no one held accountable internally 
within Libya, I think that would be sound policy.
    Is there something you can cite to show that the Senate is 
wrong in its conclusion that an imminent danger continues 
because of a refusal to accept responsibility? It seems to me 
the judgment of the Senate would be sound on this.
    Ambassador Neumann. Since we have not made a judgment yet, 
I obviously cannot tell you what that judgment is. I do not 
think we are so asleep that we have missed that resolution or 
the sense of the Senate about it.
    Senator Torricelli. What I am saying is that the entire 
U.S. Senate, having looked at the facts, concluded that there 
is no intervening event to suggest that Americans today would 
be safe to travel to Libya. I just want to go through a couple 
of points in the resolution because if you have facts that we 
are unaware of showing that we are wrong in our judgment, this 
is a good time to provide them.
    Resolution 287 says that the administration should consult 
fully with Congress in considering a policy toward Libya, 
including disclosure of any assurances received by Qadhafi 
relative to judicial proceedings in The Hague. The chairman has 
already reviewed this with you, and you, recognizing the 
consequences, I take it, are making clear to us that these 
prosecutors are free, because in your judgment it would be the 
normal course of business, to ask the suspects, the defendants 
in this case, about any instructions they received from other 
people in the Libyan Government, about knowledge of the Libyan 
Government, and that others who would be responsible in the 
normal course of judicial proceeding would be given 
consideration if they were to cooperate fully in determining 
those ultimately responsible. Indeed, there is no reason to 
believe that would not happen. Is that right?
    Ambassador Neumann. There is no restriction whatsoever on 
what the prosecutors can do and how they can follow the 
evidence.
    Senator Torricelli. No reason to believe that they would do 
the normal course of business in pursuing the case.
    Ambassador Neumann. There is no reason they would not 
follow the normal course of business. I am neither a British 
Government official nor a Scottish prosecutor, so I cannot tell 
you what they will do.
    Senator Torricelli. Based on all the knowledge that is 
available to you----
    Ambassador Neumann. Based on knowledge available to me, 
there is no limitation.
    Senator Torricelli. The Senate concluded the travel ban and 
all the United States restrictions on Libya should not be eased 
until all cases of American victims of Libyan terrorism are 
resolved and the Government of Libya has cooperated fully in 
bringing the perpetrators to justice.
    That would mean at a minimum the travel ban, in the 
judgment of the Senate, should not be lifted until this trial 
has come to a conclusion. But even the conclusion of the trial 
would not necessarily mean the travel ban should be lifted 
because there is still an affirmative duty by the Government of 
Libya to cooperate beyond the end of this trial. At least that 
is my judgment as one who voted for this resolution.
    So, the State Department may be conducting its own review, 
but let us be clear, in this institution of the Government, we 
have already reached a determination on these facts, that 
lifting this travel ban is not in the interest of this 
Government. There is no question in your mind then about where 
we all stand.
    Ambassador Neumann. Oh, no, there is no question in my mind 
about where the Senate is in their resolution, Senator 
Torricelli.
    I would like to make a couple of small observations, if I 
might.
    Senator Torricelli. Please.
    Ambassador Neumann. Obviously, I cannot debate a judgment 
that we have not--you have made a judgment. We have not made 
one. So, I am not in a position to quite go toe-to-toe with you 
on that.
    There are a couple of points of fact I just want to note. 
First of all, the passport restriction is not a sanction. I 
think you have observed that----
    Senator Torricelli. I am aware of that.
    Ambassador Neumann [continuing]. In the structure of your 
comments which focused on the particular elements.
    Second, our understanding is that it is to be applied only 
when there is an imminent danger to Americans, and that is a 
question which we are looking at. It is not structured as a 
sanction. There are a great many countries in the world in 
which there is danger to Americans where we do not have a 
travel ban. There are obviously the facts that have to be 
reviewed and what you have pointed out. Yes, I certainly am 
aware of both the points you have raised and the issue of 
consultation with the Congress. I would hope that this hearing 
today is an aspect of consultation, but I do not take it to be 
the sum total of that.
    Senator Torricelli. It is unambiguous in our view I assume.
    Ambassador Neumann. I do not think I can mistake your view, 
sir.
    Senator Torricelli. Let us approach this idea of imminency 
as a matter of law. In the years that have passed, in my 
judgment, given no evidence that Libyan Government policy has 
changed and the leadership of the government has not changed, 
there is no reason to believe that the thresholds of imminency 
cannot be reached. This would be like arguing that there is a 
statute of limitations on mass murder. The policy here is the 
same. The personnel are the same. The government is unchanged. 
And what reason would we believe that there has been some break 
suggesting the danger is not imminent? This would be like the 
Oklahoma City bombers, never having been apprehended, and 12 
years later saying, well, we have not caught them, but there is 
no reason to believe they are still dangerous. Our government 
is not of such a forgiving nature with internal crime. I do not 
know why we would have such a fundamentally different view of 
the Libyan Government.
    Ambassador Neumann. It is an interesting analogy. I am not 
sure I am in a very good position to argue it when we have not 
yet made a judgment because, if I argue with you on the 
question, I sound like we have made a judgment which I am 
defending. We have not yet made it.
    Senator Torricelli. Let us approach the conversation with 
the mind that you have not reached a judgment. Therefore, you 
are arguing a hypothetical. But let us establish the point of 
law on what an imminent threat means.
    Ambassador Neumann. You know diplomats hate to argue 
hypotheticals, Senator.
    Senator Torricelli. Well, then let us argue law. What does 
imminent threat mean? I gave you the Oklahoma City example. In 
domestic law in this country, any prosecutor in America who 
abandoned the case or changed an investigation or declared that 
there was no threat to citizens from a mass murderer simply 
because they had been silent for 12 years we would impeach from 
office.
    Now, the State Department is at least inviting that 
definition of law. So, clarify for me why my analogy is not 
sound.
    Ambassador Neumann. I think the analogy is at least open to 
challenge, although I really think that to do that without 
having both my legal colleagues and the Secretary of State 
making a decision is to put me in the position of preempting a 
bit my boss, which I think you would understand I am a little 
reluctant to do.
    The point of the trip was to look at a number of matters of 
fact in reaching a judgment of imminent threat, a judgment 
which still has to be made. Some of the things they did on that 
trip were to talk to--there are a number of Americans who are 
married to Libyans who have lived in Libya for years. They 
talked to them. There are a considerable number of foreign 
embassies whose own nationals are traveling regularly in Libya. 
Remember that the terrorist issue was not one that only 
addressed Americans. We wanted to talk to them as well.
    There is a question of where Libyan policy is and that is a 
question about which we still have some reservations, as I 
thought I indicated. So, I can say to you that we think there 
are a number of issues of fact that need looking at, but I do 
not think it is appropriate for me to get out in front of my 
boss and argue an analogy which, whatever I stipulate, appears 
to be stipulating to a decision which she has not made and I 
have to preserve her----
    Senator Torricelli. That is fine, as long as the point 
remains that at least, speaking only for myself, the idea that 
the imminency of any threat has now lapsed is without merit and 
cannot be a foundation of any change of policy.
    I also do not challenge that there is an ongoing review of 
American relations with any country. Our eyes and ears should 
be open at all times. I do, as the chairman suggested, question 
the sensitivity of having undertaken the trip and conducting 
this review at this moment. To have families that I represent 
in New Jersey packing to go to The Netherlands to seek justice 
for their loved ones who died by this terrorist act, while 
representatives of the United States are simultaneously packing 
to go to Libya, in the long history of American diplomacy could 
be a new height of insensitivity. And there has been a lot of 
competition for that honor, but this probably wins. It is an 
extraordinary act. Nevertheless, it has occurred.
    Mr. Chairman, I have, I think, made clear how I feel both 
about the visit, but more than that any attempt to change the 
travel ban based on this belief that sufficient time has 
passed. Let me only suggest that if there is a message yet to 
be conveyed to the State Department for those who do believe 
there should be some, even limited rapproachment with Libya, if 
the administration were to exercise its authority to lift the 
travel ban, I believe the Congress would have no choice but to 
respond by a change of law instituting further sanctions 
against Libya. The administration has a right to lift the 
travel ban. It is in your judgment. It is in our judgment to 
replace it with a change of policy in law. I do not believe we 
would have any choice but to do so if this error of judgment 
were made.
    Senator Brownback. Thank you, Senator Torricelli.
    Ambassador Neumann, I am sitting here and I am listening to 
a discussion. I think the aspect that is so troubling to me 
about it is the Congress does not have a question about this. I 
think the resolution that the Senator from New Jersey read 
passed unanimously in this body. So, there is not a muddled 
confusion here about this and it is not a partisan issue. This 
just seems pretty clear to people, that this relationship is 
not at a point, no matter what you may argue what Libya has 
done, that we would lift the travel ban or send any indicator 
that this thing is changing at all. And yet, the 
administration, as I listen to the dialog and I listen to your 
answers to me, it is like you are looking for that reason to do 
something here to send a different signal to Libya. And it 
seems to be a pattern of different countries around the world 
that this is taking place here in the waning hours of this 
administration for whatever reason.
    That is deeply troubling to this Member. I think it is 
troubling overall to this body. I know it is to Senator 
Torricelli from his comments and questions here, that those are 
the sort of foreign policy moves it sounds like or it seems 
like at least internally being discussed within the State 
Department and probes being put out in different ways.
    Now, I know how the Libyans interpret your moves, and we 
roughly deem them about the same as the Libyans. I would hope 
you would stop sending those sorts of signals, and if you 
desire more clarity from the view of the legislative branch on 
this, I think we can provide that to you, but I do not know 
that we need to give you more clarity on any of these issues, 
whether it is on Libya or if it is on Cuba or Iraq. I think 
people are just pretty clear on this.
    I want to ask you one final question. I have seen reports 
that in calculating what it deems to be appropriate 
compensation paid by the Libyan Government for the bombing of 
Pan Am 103, the State Department has employed formulas used in 
past cases of accidental killings of Americans abroad. Now, I 
would hope that that cannot be right and that you would clear 
that up for me. Is that report accurate?
    Ambassador Neumann. No, I do not believe it is accurate. 
First of all, we have never taken a position on a compensation 
sum, a figure of any kind. There is a civil suit of the 
families that is also in progress. We have said compensation 
has to be paid. We have said to virtually every third party who 
has talked to us about this either on Libya's behalf radiating 
a message or who might carry a message back that the Libyans 
need to deal with this. They should deal with it sooner rather 
than later, and they need to look at settling the case and 
paying compensation.
    We have not interjected ourselves with either a figure, and 
it has been our understanding that the attorneys for the 
families have not wanted the U.S. Government to be actively 
involved in this case. So, I do not quite know where the notion 
comes from that we have picked some kind of a figure.
    Senator Brownback. And there is not a figure that the State 
Department has been contemplating on appropriate compensation. 
Is that correct?
    Ambassador Neumann. To the best of my knowledge, there is 
no figure that we have deemed to represent appropriate 
compensation.
    Senator Brownback. I would ask for you to inquire further 
and be certain of your answer. If you would supply that to me, 
I would appreciate that, if there is any figure that the State 
Department has been considering for appropriate compensation. 
If you would provide that to me.
    [The following information was subsequently supplied:]

    A thorough review of pertinent State Department records revealed 
that, during President Clinton's first term in office, members of the 
Administration, including former National Security Adviser Anthony 
Lake, publicly speculated about amounts that would constitute adequate 
compensation to the families of victims of the Pan Am 103 bombing. Such 
speculation ceased, however, when Pan Am 103 family members asked 
Administration officials to leave the calculation of adequate 
compensation to the courts. During President Clinton's second term, 
members of the Administration, both at the State Department and at the 
NSC, have avoided any speculation concerning a figure that would 
represent appropriate compensation.

    Senator Brownback. Thank you, Ambassador, for appearing in 
front of the committee. I appreciate your willingness to take 
our questions on the difficult issues in front of us.
    Ambassador Neumann. Well, thank you for letting me come 
forth and thank you for giving me a little bit of time to talk 
about our side.
    I hope you will at least continue to consider the fact that 
it is not a broad policy of rapprochement, that it has been a 
policy of trying to achieve the goals that we have set out and 
the previous administrations of both parties have set out. To 
date there is a limited amount of progress, which is real and 
which does serve American interests, and we have not given 
anything away in that process. But I would have to say in 
certain clarity that, yes, I do agree with you. Your views are 
clear and they certainly have been communicated. We look 
forward to continuing to talk.
    Senator Brownback. And they are not just my views.
    Ambassador Neumann. No.
    Senator Brownback. This is a unanimous vote of the U.S. 
Senate that I would hope would carry at least some weight with 
the administration on this view.
    Ambassador Neumann. Thank you, sir.
    Senator Brownback. Thank you.
    The second panel will be the Honorable John Bolton, former 
Assistant Secretary of State for International Organizations 
Affairs and now senior vice president of the American 
Enterprise Institute, and Ms. Stephanie Bernstein with the 
group, Justice of Pan Am 103.
    Ms. Bernstein, I believe we will go first with you, if you 
would not mind going first.
    Ms. Bernstein. OK, that is fine.
    Senator Brownback. I deeply appreciate your willingness to 
go through this and be here with us today to talk about the 
issue in front of us on the relationship with Libya and justice 
of Pan Am 103 victims. Thank you for being here.

   STATEMENT OF STEPHANIE BERNSTEIN, JUSTICE OF PAN AM 103, 
                          BETHESDA, MD

    Ms. Bernstein. Thank you for holding the hearing, Senator 
Brownback, and I want to also thank Senator Torricelli, who has 
been a longtime supporter of the family members. I know of all 
that you have done through Dan and Susan Cohen and others.
    My husband, Mike Bernstein, was an ordinary person and he 
died an extraordinary death. He was 1 of 270 people murdered in 
the terrorist bombing of Pan Am flight 103. Mike's dreams were 
simple. He wanted to guide his children into adulthood. He 
wanted to grow old with his wife. He wanted to do work which 
brought him satisfaction and which contributed to making the 
world a better place than he found it.
    Mike was a Federal employee. He was the Assistant Deputy 
Director of the Office of Special Investigations at the 
Department of Justice. This is the office which locates, 
denaturalizes, and deports people who entered the United States 
illegally after the Second World War. They had participated in 
Nazi atrocities and lied about it during their immigration 
interviews.
    In fact and ironically, my last face-to-face conversation 
with Mike was when I drove him to Dulles Airport. He was on 
official U.S. Government business at the time that he was 
murdered. He was a delegation of attorneys from the Department 
of State trying to convince the Government of Austria to take 
back an Austrian citizen the Austrians would rather not have 
taken back. He discussed his strategy with me in the car on the 
way to Dulles. His concern was not how he would handle the 
Austrians; his concern was how he would handle the State 
Department. Unfortunately, he was not right in terms of the 
negotiations. They were successful. The Austrians took this man 
back, but he was absolutely right. And I will talk a little bit 
about the attitude that we have heard expressed this morning.
    In addition to me, Mike left two children. My daughter was 
7\1/2\ and my son was 4. He left a wife, a mother, and 
countless friends. He was 36 years old.
    The President's Commission on Aviation Security and 
Terrorism, which was appointed by President Bush in the 
aftermath of the Lockerbie bombing, advocated a very strenuous 
response to terrorism. Among other things it recommended, that 
we do not treat international terrorism solely as a law 
enforcement problem just because a law enforcement approach 
usually does not target more than a few members of the group 
which actually carried out the terrorist attack. Such an 
approach is not effective against those who sponsor those kinds 
of attacks.
    The commission further recommended that while multinational 
responses to terrorist acts are the ideal, nations must reserve 
the right to respond unilaterally because terrorist acts are 
often acts of aggression against a country.
    Absolutely none of these recommendations have been followed 
in the Lockerbie bombing. Both the Bush and Clinton 
administrations have promised the families of those murdered 
over Lockerbie that the U.S. Government was committed to 
discovering who ordered, paid for, and executed this terrible 
crime. These promises have been hollow.
    The families have been told repeatedly that intelligence 
data exist which answer these questions. Instead of acting on 
this information, both the Bush and Clinton administrations 
have done what was expedient, not what was right. In moving the 
Lockerbie bombing to the venue of the United Nations, the Bush 
administration avoided taking responsibility for what was an 
attack on American citizens and, therefore, an attack on this 
country. Pan Am 103 was targeted because it had an American 
flag on its tail. The Bush administration had no problem 
defending U.S. interests during the Gulf war when it perceived 
that oil was at stake. It did not have the courage, however, to 
stand up for American citizens who lost their lives precisely 
because they were Americans.
    The Clinton administration has placated the Lockerbie 
families with the right language, but its record has been just 
as poor. While assuring the families that no deals would be 
made with Libya and promising us that the United States would 
hold firm on the Libyan sanctions in the United Nations, the 
Clinton administration was secretly pursuing the deal which 
resulted in the trial which began yesterday in The Netherlands 
and which I and other family members are able to view here in 
Washington.
    I was fascinated to hear in Ambassador Neumann's testimony 
that these secret talks began in the fall of 1997, at the same 
time that the State Department and the administration were 
assuring the families up and down that there were no such talks 
under way. There was no such deal in the offing.
    Although this trial has been dressed up by the 
administration and the State Department, it is unlikely to 
produce justice, and furthermore, will result in the end of any 
meaningful effort to discover the truth about what happened and 
to hold those responsible accountable.
    Sections of the letter which gave the Libyans the 
assurances necessary to turn the suspects over were read to me 
and other family members. And in the Post today, Qadhafi is 
quoted in an interview with Sky TV referring to the agreement 
with the United States and Britain. In return for his turning 
the suspects over for trial, he said, ``the court will not 
raise questions about Libyan Government involvement in the 
bombing. The agreement is to try these two suspects, these two 
suspects only,'' he said.
    The letter and its accompanying annex, as we have talked 
about already today, have not been made public. First, family 
members were told that these documents did not exist. This was 
after portions had been read to us. Next, we were told that 
they could not be found. Finally, in response to two Freedom of 
Information Act requests, we were told that the documents had 
been classified. Just 3 weeks ago, Sandy Berger in a letter to 
a Pan Am family member changed direction yet again, writing 
that it is the U.N.'s decision whether to make these documents 
public. He stated that our Government ``disagrees'' with Kofi 
Annan's decision not to make the documents public, and that 
``we will continue to urge disclosure of this correspondence.''
    I maintain regardless of what is in that letter, there is 
no way that Qadhafi would have turned the suspects over without 
some type of guarantee. Prince Bandhar, Nelson Mandella were 
very involved in these negotiations, and we have no idea what 
was said to Qadhafi.
    The trial itself was designed with Qadhafi's concerns in 
mind. And I was further interested to hear that the Scottish 
court has not been manipulated. The Scottish court is sitting 
outside Scotland. There is no jury because Colonel Qadhafi did 
not want a jury. This has never, ever happened in a murder 
trial in Scotland.
    Qadhafi was concerned that there would not be a fair trial, 
and as we know, the suspects are being tried at a former U.S. 
military base in The Netherlands. Because Qadhafi was fearful 
that a jury would be more likely to return a guilty verdict, he 
specified that the trial be held before three judges.
    In addition, Qadhafi pressed for the trial to be held under 
Scottish law because of its strict standards for admissible 
evidence, and this is a tremendous disadvantage in a case which 
is largely circumstantial. I believe it is very possible that 
the defendants will go free at the conclusion of the trial. In 
addition to verdicts of guilty and not guilty, Scottish law 
provides for a verdict of not proven. The result of this 
verdict is the same as a verdict of not guilty: the accused 
would go free.
    Although the Clinton administration has made promises to 
the Pan Am families that the conduct of the trial will not be 
hampered by the contents of the letter and annex sent to 
Qadhafi, this is an empty promise. And I think this is a very 
important point. Mrs. Albright and others have promised that 
the prosecutors will take the evidence wherever it goes. This 
is either cynical manipulation or naivete. I do not know which 
is worse. In fact, the criminal case against the two Libyans, 
as I understand it, is very narrowly focused. U.S. prosecutors 
have told family members that it is highly unlikely that any 
evidence which could be used to pursue those higher up the 
chain of command will come out at the trial.
    Even without the assurances given to Qadhafi to get him to 
turn the suspects over for trial, it is unlikely that others 
will ever be held accountable. I believe that the United States 
is well on its way to resuming normal relations with Libya. We 
talked about the visit by the State Department group a month 
and a half ago, and I just want to add they were there for a 
grand total of 26 hours.
    Once normal relations are resumed with Libya, no further 
investigation will occur. U.S. oil companies are anxious to do 
business again with Libya. There is a lot of money to be made. 
Those countries, such as Great Britain, which have already 
resumed diplomatic relations with Libya are reaping enormous 
economic benefits.
    Former U.S. public officials and some current ones are 
getting into the act as well. Former D.C. Delegate Walter 
Faunteroy has been trying to put together a delegation to 
travel to Libya. This group includes several current 
Congressmen, and met with officials at the State Department in 
February to discuss such a trip. At this meeting, 
representatives from the group were told by the State 
Department that if they do travel to Libya, the subject of 
compensation for the Lockerbie families will be discussed. This 
is an attempt by the Libyans and others to buy the families' 
silence.
    Herman Cohen, a former State Department official during the 
Bush administration, recently traveled to Libya to discuss 
relations between the two countries with an eye toward 
improving the climate so that business can resume. During his 
trip, he met with Qadhafi, as well as Abdullah Senussi. Senussi 
is Qadhafi's brother-in-law. He was convicted last year in 
absentia by a French court in the UTA bombing. This was a mid-
air bombing similar to Lockerbie in which 171 people, including 
the wife of an American diplomat, were murdered. These and 
other business contacts by U.S. citizens are detailed in a 
recent Time magazine article.
    As a family member whose husband was murdered in a 
terrorist attack, these efforts to promote business at the 
expense of justice are deeply disturbing. I am afraid that we 
are sending a message that terrorists and the countries which 
sponsor or harbor them will not have to pay a price for their 
actions. When we allow ourselves to believe that encouraging 
business relationships with these countries will somehow 
inoculate us against further terrorist attacks, I believe that 
we are dangerously naive. Is it really good business to do 
business with terrorists? Should the murder of innocent human 
beings ever be a prelude to business as usual?
    I wish that I could be more optimistic that there will ever 
be justice for my husband and the others who were so brutally 
murdered with him. Despite years of effort by family members 
whose loved ones fell from the sky that December night in 
Scotland, we have only what I fear will be a show trial and the 
rehabilitation of the regime which ordered the attack. If we 
have learned anything from Lockerbie I hope it is that sweeping 
murder under the rug by convincing ourselves that we are 
pursuing justice will only undermine global stability and 
compromise the principles on which this country was founded.
    Thank you.
    [The prepared statement of Ms. Bernstein follows:]

               Prepared Statement of Stephanie Bernstein

    My husband, Mike Bernstein, was an ordinary person who died an 
extraordinary death. He was one of 270 people murdered in the terrorist 
bombing of Pan Am flight 103. His dreams were simple: he wanted to 
guide his children into adulthood. He wanted to grow old with his wife. 
He wanted to do work which brought him satisfaction and which 
contributed to making the world a better place than he found it.
    Mike was a federal employee. He was the Assistant Deputy Director 
of the Office of Special Investigations at the Department of Justice. 
This is the office which finds, denaturalizes, and deports persons who 
entered the United States illegally after World War II because they had 
participated in Nazi atrocities during the Holocaust. Mike left two 
children, ages 4 and 7, a wife, a mother, and countless friends. He was 
36 years old.
    Prior to Mike's murder, I was able to hold at arm's length the evil 
which drives people, in the name of a cause or revenge to take the 
lives of innocent men, women, and children. After Lockerbie, many of us 
became fearful that ordinary activities, like putting a loved on an 
airplane, could have devastating consequences. During a train ride to 
New York, shortly after his Dad's murder, my then four year old asked 
me if people ever put bombs on trains.
    In the years since my husband's murder, I have thought a great deal 
about terrorism, and about how peace loving nations can deter it. I 
believe that the only way to deter terrorism is to pursue justice 
against its perpetrators, and to make clear that sponsoring terrorism, 
or harboring those who carry it out will not be tolerated by the 
civilized world.
    The President's Commission on Aviation Security and Terrorism, 
appointed by President Bush after the Lockerbie bombing, advocated such 
a strenuous response to terrorism. In its report to the President, the 
Commission recommended that international terrorism not be treated 
solely as a law enforcement problem, because a law enforcement approach 
usually does not target more than a few members of the group which 
actually carried out the terrorist attack. Such an approach is not 
effective against those who sponsor terrorist attacks. The Commission 
further stated that while multinational responses to terrorist acts are 
the ideal, nations must reserve the right to respond unilaterally. 
Terrorist acts are often acts of aggression against a country.
    None of these recommendations have been followed in the case of the 
Lockerbie bombing. Both the Bush and Clinton administrations have 
promised the families of those murdered over Lockerbie that the United 
States government was committed to discovering who ordered, paid for, 
and executed this terrible crime. These promises have been hollow.
    The families have been told repeatedly that intelligence data exist 
which answer these questions. Instead of acting on this information, 
both the Bush and Clinton administrations have done what was expedient, 
not what was right. In moving the Lockerbie bombing to the United 
Nations, the Bush administration avoided taking responsibility for what 
was an attack on American citizens, and therefore, an attack on 
America. Pan Am 103 was targeted because it had an American flag on its 
tail; of the 270 killed in this murderous attack, 189 were U.S. 
citizens. The Bush administration had no problem defending U.S. 
interests during the Gulf War when it perceived oil was at stake. It 
did not have the courage, however, to stand up for American citizens 
who lost their lives precisely because they were Americans.
    The Clinton administration has placated the Lockerbie families with 
the right language, but its record has been just as poor. While 
assuring the families that no deals would be made with Libya, and 
promising us that the United States would hold firm on the Libyan 
sanctions in the U.N., the Clinton administration was secretly pursuing 
the deal which has resulted in the trial which began yesterday in the 
Netherlands. Although the trial has been dressed up by the 
administration and the State Department, it is unlikely to produce 
justice, and, furthermore, will result in the end of any meaningful 
effort to discover the truth about what happened and to hold those 
responsible accountable.
    Sections of the letter which provided the Libyans the assurances 
necessary to turn the suspects over were read to me and other family 
members. Promises were made that the Libyan regime would not be 
undermined or embarrassed during the trial. This letter and its 
accompanying annex have not been made public. First, we were told that 
the documents did not exist. Next, we were told the documents could not 
be found. Finally, in response to two Freedom of Information Act 
requests, we were told the documents have been classified. Just three 
weeks ago, Sandy Berger, in a letter to a Pan Am family member, changed 
direction again, writing that it is the U.N.'s decision whether to make 
these documents public. He stated that our government ``disagrees'' 
with the Secretary General's decision not to make the documents public, 
and that ``we will continue to urge disclosure of this 
correspondence.''
    The trial itself was designed with Gadhafi's concerns in mind. He 
did not want the trial to be held in Scotland or the United States, as 
specified in the indictments of the two suspects. He was concerned that 
they would not receive a fair trial, so the suspects are being tried at 
a former U.S. military base now owned by the Dutch, who, for the 
purposes of the trial, have ceded the land to the Scots. Because 
Gadhafi was fearful that a jury would be more likely to return a guilty 
verdict, he specified that the trial be held before three judges. This 
has never been done before in the history of the Scottish legal system. 
Gadhafi pressed for the trial to be under Scottish law because of its 
strict standards for admissible evidence, a tremendous disadvantage in 
a case which is largely circumstantial.
    It is very possible that the accused will go free at the conclusion 
of the trial. In addition to verdicts of guilty and not guilty, 
Scottish law provides for a verdict of ``not proven.'' The result of 
this verdict is the same as a verdict of not guilty--the accused would 
go free.
    Although the Clinton administration has made promises to the Pan Am 
families that the conduct of the trial will not be hampered by the 
contents of the letter and annex sent to Gadhafi, this is an empty 
promise. Mrs. Albright and others have promised that the prosecutors 
will ``take the evidence wherever it goes.'' This is either cynical 
manipulation or naivete--I don't know which is worse. In fact, the 
criminal case against the two Libyans is very narrowly focused. 
Prosecutors have told family members that it is highly unlikely that 
any evidence which could be used to pursue those higher up the chain of 
command will come out at the trial.
    Even without the assurances given to Gadhafi to get him to turn the 
suspects over for trial, it is unlikely that others will ever be held 
accountable. The United States is well on the way to resuming normal 
relations with Libya. Once that occurs, no further investigation will 
occur. U.S. oil companies are anxious to do business again in Libya; 
there is much money to be made. Those countries, such as Great Britain, 
which have already resumed diplomatic relations with Libya are reaping 
huge economic benefits. The visit to Libya this spring by a delegation 
from the State Department to evaluate whether the passport ban should 
be lifted sent yet another signal that normal relations are just a 
matter of time.
    Former U.S. public officials are getting into the act as well. 
Former Delegate Walter Faunteroy has been trying to put together a 
delegation to travel to Libya. This group includes several current 
Congressmen, and met with officials at the State Department in February 
to discuss such a trip. At this meeting, representatives from the group 
were told by the State Department that if they do travel to Libya, the 
subject of compensation for the Lockerbie families will be discussed. 
This is an attempt by the Libyans and others to buy the families' 
silence.
    Herman Cohen, a former State Department official during the Bush 
administration, recently traveled to Libya to discuss relations between 
the two countries, with an eye toward improving the climate so that 
business can resume. During his trip, he met with Gadhafi, as well as 
with Abdullah Senussi. Senussi is Gadhafi's brother-in-law, and was 
convicted last year in absentia by a French court in the UTA bombing. 
This was a mid-air bombing, similar to Lockerbie, in which 171 people, 
including the wife of an American diplomat, were murdered. These and 
other business contacts with Libya by U.S. citizens are detailed in a 
recent Time Magazine article (``Why Libya Wants In,'' March 27, 2000).
    As a family member whose husband was murdered in a terrorist 
attack, these efforts to promote business at the expense of justice are 
deeply disturbing. I am afraid that we are sending a message that 
terrorists and the countries which sponsor or harbor them will not have 
to pay a price for their actions. When we allow ourselves to believe 
that encouraging business relationships with these countries will 
somehow inoculate us against further terrorist attacks, I believe that 
we are dangerously naive. Is it really good business to do business 
with terrorists? Should the murder of innocent human beings ever be a 
prelude to business as usual?
    I wish that I could be more optimistic that there will ever be 
justice for my husband and the others so brutally murdered with him. 
Despite years of effort by family members whose loved ones fell from 
the sky that December night in Scotland, we have only what I fear will 
be a show trial and the rehabilitation of the regime which ordered the 
attack. If we have learned anything from Lockerbie, I hope it is that 
sweeping murder under the rug by convincing ourselves that we are 
pursuing justice will only undermine global stability and compromise 
the principles on which this country was founded.
    The cases in which my husband sought justice were many decades old. 
He believed strongly that justice was worth pursuing. He felt that 
there should be no time limit on justice when atrocities are committed. 
After Mike's murder, I received a letter from Yvan Roy, the Director of 
the Crimes Against Humanity and War Crimes Section of the Department of 
Justice of Canada. He wrote:

          The dedication of people such as Michael is that which 
        combats the senseless cycle of hatred and devastation. All for 
        which we can work and pray is that through the commitment of 
        people like Michael, we continually proceed further towards the 
        goals which will hopefully diminish and eventually one day 
        eliminate the havoc that is wrought on innocent individuals.

    Senator Brownback. Thank you. Thank you for your powerful 
testimony and your thoughtfulness and your willingness to come 
here to testify today.
    Mr. Bolton, thank you for joining us. The floor is yours.

STATEMENT OF HON. JOHN R. BOLTON, FORMER ASSISTANT SECRETARY OF 
   STATE FOR INTERNATIONAL ORGANIZATION AFFAIRS; SENIOR VICE 
    PRESIDENT, AMERICAN ENTERPRISE INSTITUTE, WASHINGTON, DC

    Mr. Bolton. Thank you very much, Mr. Chairman. Let me come 
right to the point.
    Our national policy toward Libya today is a policy of 
appeasement. There just simply is no other way to describe it, 
and I think you can understand it best by looking at the 
evolution of the handling of the Pan Am 103 matter.
    First, it seems to me, if we have learned anything in 
hindsight, is that, beginning with the Bush administration, in 
which I served, we should have treated Pan Am 103 as an attack 
on the United States and responded accordingly. We made a 
mistake by treating it as a diplomatic or judicial matter. We 
should have followed President Reagan's example in the wake of 
the La Belle Disco bombing. We should have attacked Libya 
militarily and hopefully gotten a little bit luckier than the 
Reagan administration bombing.
    We should treat the war on terrorism seriously. It may be 
too late now to do anything militarily with respect to the 
perpetrators of Pan Am 103, but we should have no illusions in 
the future that every other terrorist and potential terrorist 
in the world has marked our policy over the past 11 years 
carefully and has drawn, sad to say, the appropriate 
conclusions.
    Second, Mr. Chairman, we were wrong from the outset to take 
the Pan Am 103 attack to the Security Council and to restrict 
ourselves to U.N. processes. I can say here, just as a personal 
matter, I am the only person I know--I may be the only person 
ever--who has been both an Assistant Secretary of State and an 
Assistant Attorney General. I know both of these Departments 
inside and out. And I know what happened in 1991 and 1992 when 
the Bush administration made a decision to seek Security 
Council condemnation of Libya, followed by a very limited 
regime of sanctions, Mr. Chairman, in Security Council 
Resolution 748.
    At the time I opposed the notion that we should take Pan Am 
103 into the Security Council. And I do not want to overstate 
this. I did not, at the time, appreciate much of what I have 
come to see since then. My argument at the time, which was 
overruled, was that we would expend an enormous amount of 
political and diplomatic effort and not achieve very much 
concretely. I would say, unfortunately, I think that prediction 
was true. We did expend an awful lot of diplomatic effort, and 
we achieved by a vote of 10 to 0 with 5 abstentions in 
Resolution 748 a very minimal set of sanctions that was only 
modified to a very insubstantial degree in 1993.
    The result, however, was that once we had wrapped ourselves 
around the U.N. axle, the unilateral resort to military force 
became, as a practical matter, more and more difficult, indeed 
impossible.
    Now what we see, as you and Senator Torricelli and other 
witnesses have commented on, is an apparent rush toward full 
normalization of diplomatic relations with Libya. This is a 
scene in a whole series of steps that you previously discussed, 
and it is also underlined in the pattern that you have 
mentioned of a similar rush toward normalization with countries 
like Cuba, the Sudan, Syria, Iran, and North Korea. I think 
this pattern clearly is not a series of discrete decisions. The 
sixth floor of the State Department is not capable of coming up 
with so coherent a policy. It must be a policy at the top 
level, which I would urge this committee to look into.
    We have heard a lot today from the administration about 
statements about this and statements about that and some steps 
here and things we are not quite sure about. Let us look at the 
real record.
    The seizure by British customs authorities, only a few 
months ago, of shipments of so-called auto parts on their way 
from China to Libya, were crates containing Scud missiles. Now, 
this is in flat violation of the weapons embargo contained in 
Resolution 748. It was seized by British authorities under 
authority of European Union sanctions against Libya which were 
imposed after 748. You are not working on Scud missiles like 
that just waking up one morning and saying, well, I think I 
will order. This is obviously part of a pattern that the 
Libyans have been engaged in, and the notion that Scud missiles 
and the threat that they posed to the southern countries of 
Europe is something that we should ignore I just find 
inexplicable. This is not talk. This is not assertion. This is 
not abstract theory. This is real Libyan conduct, just a few 
months ago, that tells us what they are really up to.
    Third, Mr. Chairman, the United States, particularly in the 
past 2 years, has made repeated, unilateral, unreciprocated 
concessions to Libya that I think gravely threaten the 
prosecution's case at Camp Zeist and undermine our own legal 
system at the same time.
    Let me turn immediately to this question of whether there 
are assurances or a deal between Libya on the one hand and the 
United States and the United Kingdom on the other. We know from 
what members of the families have told us that before the 
magical classification of the Secretary General's letter, they 
were read portions of it. And a number of things stick in their 
minds, but one phrase that comes up over and over again is a 
commitment not to ``undermine'' the Government of Libya, that 
the prosecution of the case will not ``undermine'' the 
Government of Libya.
    Now, I think Deputy Assistant Secretary Neumann has 
explained to us today exactly how that phrase got in there and 
why Muammar Qadhafi, as recently as yesterday, is proud to say 
publicly he thinks he has a deal. This idea that we would say, 
we have no interest in doing a Stalinist show trial--I do not 
know where that idea came from. I do not think anybody on our 
side of the table has ever thought of that. If that is 
Qadhafi's concern, that is really his problem. But in an effort 
to satisfy Qadhafi that we are not going to conduct a Stalinist 
show trial, it seems to me entirely possible that the Secretary 
General and the international diplomats and international 
leaders aiding him could have given assurances--whether they 
are embodied in this letter or not, obviously we do not know--
that there was not a political aim, that there was not a desire 
to undermine the Libyan regime, thus giving Qadhafi sufficient 
assurances that his position would not be threatened, that he 
would willingly sacrifice these two individuals, over whom, 
bear in mind, he retains considerable authority. He has their 
families back in Libya. I do not think these people are going 
to do anything other than play the script out for them that 
Qadhafi has written. But the point is that Qadhafi holds the 
card to make sure that, in fact, his regime is not threatened.
    Now, you can say at the same time, well, the prosecutors 
can pursue the evidence wherever it leads. Pursue what 
evidence, Mr. Chairman? It is unquestioned--top FBI officials 
have said this--that the Government of Libya has been for the 
past 10 years seriously about the business of destroying 
evidence, tampering with evidence, fabricating evidence, 
destroying witnesses, tampering with witnesses, coming up with 
new witnesses. This is not a trial in the United States for 
murder. This is a trial being conducted against a rogue regime 
that has no concept whatever of due process, as it has 
demonstrated repeatedly.
    The really interesting question here, as we watch the trial 
unfold, is what Scottish judges are going to do if confronted 
with objections from the defense that the prosecutors have 
begun to engage in a political trial of the Libyan regime. How 
is a Scottish judge supposed to rule on an objection like that? 
And if the objections go the wrong way from Libya's point of 
view, what happens to the trial? Worse yet, if the objections 
are sustained--that is to say, go the right way from the Libya 
point of view--what is going to happen to the defendants? I 
think it is clear they are going to walk.
    This element of concession and these repeated concessions 
to the Libyans has colored American policy throughout the past 
2 years. A number of things have been mentioned.
    We have given up the argument that these defendants should 
have been tried under American law. Is that significant? 
Absolutely, Mr. Chairman. Scottish law does not provide for the 
death penalty. And I cannot think of a more appropriate case 
for the imposition of the death penalty than for the people who 
are found guilty of the murder of 270 innocent civilians in a 
terrorist bombing.
    In addition, Resolution 1248 provided that the Secretary 
General will name U.N. observers to watch the trial. Indeed, he 
has recently done so. U.N. observers, Mr. Chairman? Is Scottish 
justice not quite up to Libya's high standards of due process? 
We have a problem with Scottish justice that we need five U.N. 
observers? And what is their role going to be if they see the 
trial drifting in a political direction? At least I know one of 
the observers, a former Egyptian Permanent Representative to 
the United Nations in New York. The press has reported that one 
other of them has represented the Libyan mission to New York in 
his capacity as a lawyer. I am really not looking forward to 
the conduct of these five U.N. observers.
    And then, just as icing on the cake, if these defendants 
are convicted, there will be U.N. observers monitoring their 
incarceration in Scotland, as if Scottish jails also do not 
measure up to those high Libyan standards.
    Mr. Chairman, these are very serious negative precedents 
for other cases of international terrorism that may arise. I 
think given that this is sort of the threshold for what we are 
going to see in the future, I can see this trend only being 
downhill.
    Let me just address very quickly one other aspect here that 
goes to this question of the visas that Senator Torricelli 
raised. There is, it seems to me, not very much question that 
there is a continuing and ongoing obstruction of justice here. 
If, as well, the investigators at our Department of Justice, 
who by the way have been systematically excluded from most 
negotiations, most decisionmaking over the Pan Am 103 matter by 
the State Department--but if they are accurate that not a 
sparrow falls in Libyan intelligence services without Qadhafi's 
approval, then there is also no question that Qadhafi himself 
is a co-conspirator, indeed, the lead co-conspirator in the 
murder itself, as well as in the ongoing obstruction of 
justice. If that is the case, Senator Torricelli, it is not 
even a matter of a transgression being committed 11 years ago, 
it is a continuing transgression. There is still illegality 
under terms of American law and, therefore, still full and 
complete legal warrant under the terms of the statute to worry 
about the safety of Americans. The terrorist, in fact, is still 
loose.
    Mr. Chairman, let me just conclude by saying that what this 
weak and craven policy has done is to leave us with effectively 
no Libyan policy, especially if the trial goes badly and the 
high standard of proof, guilt beyond a reasonable doubt, is not 
met. I have been very encouraged in the past couple of months 
by the increased attention that Members of Congress have given 
to this matter and by the efforts that have been made to obtain 
Kofi Annan's letter and other things. I think your decision to 
hold this hearing this morning is extremely important not only 
for the Pan Am 103 families who have been so abused in the 11 
years since the tragedy, but for the larger issue of how 
America deals with terrorist attacks like this. It is 
unquestioned, it seems to me--and the Senate has reflected 
this--that an attack on one American is an attack on all. And I 
hope congressional interest in this matter will increase. I 
hope it becomes the subject of discussion in our Presidential 
campaign. I think it is something that all Americans should 
take a lot more seriously than we have the past several years.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Bolton follows:]

               Prepared Statement of Hon. John R. Bolton

    Mr. Chairman and Members of the Subcommittee, I appreciate the 
opportunity to appear before you this morning to testify on American 
policy toward Libya. I have a prepared statement I would like to submit 
for the record, which I will summarize, and then I would be happy to 
answer any questions Members the Subcommittee may have.
    Yesterday, trial began for two Libyan intelligence agents, accused 
of the heinous murder of 270 innocent civilians in the terrorist 
bombing of Pan Am 103 on December 21, 1988. At first glance, the 
prosecution's formal opening in a Scottish court sitting in the 
Netherlands may seem like something to celebrate, a time for rhetoric 
about ``the rule of law'' in international affairs. We will certainly 
hear a good deal of that from the Clinton Administration.
    Unfortunately, however, the trial may actually mark the final 
collapse of U.S. policy toward Libya, and the end of our efforts for a 
real vindication of Pan Am 103's victims. This collapse embodies both a 
failure of will to use military force to respond to a brutal attack on 
our citizens, and self-imposed, potentially crippling limitations on 
even the narrow avenue of prosecution. While this erroneous approach 
started during the Bush Administration, it has been refined and 
perfected in the Clinton State Department. Equally repellent, we must 
simultaneously watch the spectacle of the Administration's pell-mell 
rush to resume full diplomatic relations with Libya, as soon as it can 
elide the inconvenient indignation of the Pan Am 103 families and their 
Congressional supporters.
    How have we allowed such a policy to develop to full maturity? What 
should we have done over the past eleven years, and what should we do 
now to meet our obligations not only to the immediate victims of the 
Pan Am 103 bombing and their families, but to redeem our larger 
national interests, not least of which is to rescue whatever may be 
left of our credibility in the struggle against international 
terrorism?
1. We should have treated the Pan Am 103 bombing as an attack on the 
        United States, and responded accordingly
    Eleven-plus years after Pan Am 103's destruction and nine years 
since American and Scottish prosecutors indicted these two defendants, 
we are long past any realistic prospect of a proper military response. 
All we can do now is note our basic mistake in 1991-92 to judicialize 
this issue rather than to use force, in contrast with President 
Reagan's decision to launch air strikes against Libya for the 1986 
``disco bombing'' of U.S. servicemen in Germany.
    Although it sounds better to unleash hard-headed prosecutors rather 
than weakkneed diplomats against terrorists, there is a better option 
still: cold steel. Instead of responding to the bombing as if it were a 
domestic murder case, we should have seen this Libyan act of terror as 
the political-military attack that it was, and responded accordingly. 
The American response--either unilaterally or with whichever allies 
would join us--should have been to declare war on the terrorists, just 
as President Clinton purports to have done against Osama bin Laden. 
Then, unlike President Clinton, we should have gotten serious about it. 
Using military force against terrorists does not violate our legal or 
moral obligations. It does prevent the law from being perverted by its 
sworn enemies. That is the real lesson we should have taught Gadhafi--
and all the others who are watching--about Pan Am 103.
    Instead, we have followed a debilitating diplomatic course of 
concessions and further restrictions on our legal system's integrity 
and autonomy. Every sign now points toward an imperfect trial, tilted 
toward acquittal. This is simply no way to deal with terrorism. 
Prosecutors in the Anglo-American system must prove guilt beyond a 
reasonable doubt, an extremely high burden of proof in any criminal 
trial, and even more difficult when the defendants' government has 
almost certainly destroyed or tampered with the evidence and witnesses.
2. The United States was wrong from the outset to take the Pan Am 103 
        attack to the Security Council, and to restrict ourselves to 
        United Nations processes
    In January, 1992, in Resolution 731, the Security Council took the 
unprecedented step of deploring Libya's failure to cooperate with 
international law-enforcement efforts. Two months later, in another 
unprecedented step, the Council's Resolution 748 imposed economic 
sanctions against Libya. Although hailed at the time as great 
victories, in fact, there was little enthusiasm for the initial 
condemnation of Libya, and we were barely able to gain support for the 
imposition of sanctions. We have been under continuous pressure since 
1992 to scale back or eliminate the sanctions on any pretext, largely 
from Europeans who would rather trade with Moammar Gadhafi than punish 
him for murder. Ironically, not even Gadhafi is playing along with this 
charade. In an April 3 speech to the African-European summit in Cairo, 
he declared that ``Africa is not a ping-pong ball to be hit once by 
Europe, once by the U.S.,'' and ``we do not need democracy; we need 
water pumps.''
    Unfortunately, Secretary of State Madeleine Albright's unseemly 
haste to achieve the normalization of relations with Libya embodies the 
State Department's typical deference to the European Union, combined 
with the Near East bureau's inevitable ``clientitis'' toward 
authoritarian regimes. Only the unlikely but powerful combination of 
Senators Jesse Helms and Edward Kennedy has slowed down the 
Department's efforts, through their resolution, recently adopted by the 
full Senate, cautioning against the rush toward normalization.
    Libya's own actions in the months preceding the opening of trial 
have been openly contemptuous toward the United States and the United 
Kingdom. In November, 1999, for example, British authorities at 
London's Gatwick Airport seized a shipment of ``auto parts'' bound 
indirectly from China to Libya. Based on tips received as early as 
April, 1999, the British believed, correctly, that the ``auto parts'' 
were in fact Scud missile components, violating a European Union arms 
embargo against Libya. Nonetheless, undeterred by Libya's blatant 
disregard for international sanctions, the United Kingdom did normalize 
relations with Gadhafi, and the Clinton Administration seems intent on 
doing so as well. What does it take for our Administration to realize 
the error of policies of reconciliation with Gadhafi? In addition to 
Scud missile components, does it need hard evidence of nuclear, 
biological or chemical weapons to become concerned?
    There is absolutely no warrant to move toward the normalization of 
American diplomatic relations with Libya, whatever the verdict of the 
Scottish court. How anyone could interpret Gadhafi's actions over the 
past several years as meriting the return of ``business as usual'' with 
his dictatorship is a mystery, except in the context of the larger 
drift of American policy toward fanatically anti-American governments.
    From Libya, to the Sudan, to Cuba, to Iran, to North Korea, and 
perhaps elsewhere, Secretary Albright seems determined to restore 
relations with rogue regimes whose only common thread is their hatred 
of the United States and blatantly criminal behavior toward our 
citizens and our interests. Any one of these rapprochements could be 
seen in isolation as a simple mistake in judgment--a failure by a State 
Department regional bureau--but it is only when all of these mistakes 
are taken together do we see that they must be part of a deliberate 
Administration policy. Such a sweeping, comprehensive reversal of 
previous U.S. policy could only come from the Secretary's Seventh Floor 
suite, and that is why the Senate's recent rejection of normalization 
with Libya, led by this Committee, is so important.
3. The United States has made repeated, unilateral concessions to Libya 
        that threaten the prosecution's case, and undermine our own 
        legal system
    Secretary Albright, demonstrating she is no prosecutor, has made 
several critical mistakes in the preparation and handling of the trial 
itself. These mistakes have made it unfortunately likely that the trial 
will simply be a piece of political theater, far removed from the 
original law-enforcement scenario that its proponents envisaged a 
decade ago.
    Initially, Secretary Albright conceded, without gaining anything in 
return, that the case would be tried under Scottish law, which does not 
provide for the death penalty for convicted murderers. While Scotland 
undeniably has a jurisdictional claim in the case, because eleven of 
its citizens died on the ground near Lockerbie, the American claim was 
far stronger, given that 189 of our citizens were among the 270 total 
fatalities. One can imagine valid reasons for deferring to the Scots, 
but to lose even the possibility of the death penalty without obtaining 
a single American objective in exchange is a stunning failure of the 
Secretary's diplomacy.
    We can also see now that the next concession--to hold the trial in 
the Netherlands, rather than in Scotland itself--while seemingly 
unimportant initially, is also having adverse consequences. Leaks that 
the Administration would accept the Pan Am 103 trial in a third country 
originally appeared in July, 1998, before the terrorist bombing of our 
embassies in Kenya and Tanzania. Yet even after those bombings, and the 
subsequent American military retaliation, the Administration proceeded 
to give way on the Pan Am 103 trial location, which had, in the Bush 
Administration, been part of a ``take it or leave it'' proposition to 
Libya that the trial be held in the United States or Scotland. 
Secretary Albright's concession that the trial could be held in the 
Netherlands (symbolically, site of the International Court of Justice 
at The Hague) was also billed as ``take it or leave it,'' which could 
only further undermine our credibility with Gadhafi and the other 
closely-watching outlaw regimes. Indeed, after only a momentary 
hesitation, the Libyans began demanding further negotiations and 
concessions, just as they have done, ceaselessly, since they first 
faced the prospect of economic sanctions in 1991.
    A further concession is also embodied in the August, 1998 Security 
Council Resolution, namely that U.N. Secretary General Kofi Annan would 
name international ``observers'' to ``monitor'' the Scottish judges' 
conduct of the trial. Whatever the individual qualifications of the 
five trial observers named to date--and one of them is reported to have 
served as lawyer for Libya's U.N. mission in New York--the fact remains 
that this concession is an insult to the entire Scottish judicial 
system. The idea that Scottish justice may not be up to Libya's high 
standards of due process, or that there is some ``international'' 
standard that is somehow better than Scotland's (and, implicitly, 
America's) should have been flatly unacceptable to the Administration.
    An equally bad precedent is that the United States and the United 
Kingdom also conceded that, if convicted and imprisoned, the defendants 
would be ``monitored'' by the United Nations. Perhaps Gadhafi is 
unfamiliar with the concept, but in nations where the rule of law 
prevails, prisoners generally are required to be treated humanely and 
are allowed to consult with counsel, to practice their religions, to 
receive legitimate visitors, and the like. For understandable security 
reasons, prisoners are not treated uniformly. Convicted murderers do 
face different circumstances than tax evaders. Nonetheless, the United 
Kingdom still qualifies as a democratic, civilized-enough place that it 
can be expected to meet its own legal standards.
    The notion that Scottish prisons might not meet Libyan norms is 
breathtaking. Bear in mind also that the United States is already under 
criticism at the United Nations for even permitting the death penalty, 
let alone the way it is administered. The Pan Am 103 precedent raises 
the prospect that controversial cases with the slightest international 
coloration will be subject to calls for U.N. monitoring or oversight. 
What seems at first like a slight concession to Gadhafi's peculiar 
sensitivities is actually a potentially open-ended invitation to global 
entanglement in our criminal justice system.
    Finally, and worst of all, Secretary Albright and her diplomats 
acquiesced in a letter sent by Secretary General Kofi Annan to Gadhafi, 
which essentially guaranteed Gadhafi that he would not be linked to the 
murders at the trial. This letter (which has now apparently been 
classified by the Department of State) has never been made public, and 
it is unclear whether it was co-signed by American and British 
diplomats or simply ``cleared'' by them in draft. In any event, 
compounding her many other blunders, the Secretary has waged a full-
scale war against the Pan Am 103 families, several Members of Congress, 
and numerous journalists who have been trying to obtain a copy of the 
Annan letter. This policy of compromising with Gadhafi but stonewalling 
American family members has only increased concerns about what the 
Annan letter actually says.
    Based on revelations to the Pan Am 103 families before the Annan 
letter was classified, we can conclude with some confidence that the 
Secretary General has effectively insulated Gadhafi from criminal 
liability for the bombing, which many believe he personally ordered. 
The Annan letter is said to promise Gadhafi that the prosecutors' 
conduct of the trial will in no way ``undermine'' the Libyan regime. It 
is inconceivable that our Department of Justice willingly agreed to 
limitations on the prosecutors, and Attorney General Janet Reno 
acknowledged as much last fall in a briefing to the Pan Am 103 
families. Nonetheless, our diplomats have agreed that the public trial 
of the hit men will be limited by vague words that mean we may never 
learn the full story.
    Certainly, the United States has, at times, decided not to proceed 
with criminal trials that might have had an adverse impact on national 
security. Because of concerns about protecting intelligence sources and 
methods, or because of overriding foreign policy priorities, even 
clearly winnable prosecutions have been abandoned. Such decisions 
reflect tough assessments as to when critical national interests 
legitimately trump criminal-justice priorities. But what the Clinton 
Administration has accepted here is something far different. Its 
concessions to Gadhafi (albeit through its chosen agent, the U.N. 
Secretary General) are made to a potential defendant, or at least a co-
conspirator, in the murder that is the very subject of the 
investigation.
    By knuckling under to Libya's demands, President Clinton has left 
to Scottish judges the ticklish job of adjudicating Libyan objections 
at trial to particular questions, witnesses or exhibits, any of which 
might be said to ``undermine'' the Libyan government. That is not only 
irresponsible, but disingenuous. On what basis could any common-law 
judge legitimately rule on such a fundamentally political question? 
Moreover, if the court rules ``incorrectly'' from Libya's perspective, 
is the deal off? Even worse, if the court rules ``correctly'' from 
Libya's perspective, will the prosecution's case be fatally weakened, 
and the defendants walk? As a precedent for future negotiations with 
terrorists (which we supposedly abjure), this new ``Gadhafi Clause'' 
will become an irreducible minimum condition for regimes abetting 
violence.
    Not only are our unilateral, unreciprocated concessions unwise in 
and of themselves, they also represent a series of small but continuing 
victories for Gadhafi in his unending efforts to ``internationalize'' 
the trial, and thus take it out of the purview of either Scottish or 
American justice. Gadhafi had consistently argued that the two Libyans 
he handed over could not get a ``fair trial'' from Scottish or American 
courts, and every concession made to this absurd contention 
strengthened the international perception that perhaps we were also 
unsure that they could receive a fair trial. Unfortunately, the pattern 
of American concessions we have seen here will inevitably be cited as a 
precedent in similar situations in the future, and therefore constitute 
yet another step on the treacherous path toward removing the 
responsibility for criminal justice from nation-states, and 
internationalizing it in potentially irresponsible and unaccountable 
hands.
4. The disintegration of American policy toward Libya means that the 
        Administration has no policy if the Scottish judges at Camp 
        Zeist acquit the Libyan defendants
    This result is entirely possible, given the high standard of proof 
required for convictions, the lack of cooperation from the Libyan 
government, and the prosecutors' needs to shield sensitive intelligence 
sources and methods from exposure. A finding of ``not guilty'' (or a 
so-called ``Scottish verdict'') is not the legal or moral equivalent of 
finding the defendants ``innocent,'' but no one will recognize that 
distinction in the trial's aftermath. Gadhafi and his fellow thugs will 
have beaten the judicial system, and Secretary Albright can proceed 
toward diplomatic normalization unencumbered by any further obligations 
to the Pan Am 103 families.
    Indeed, even if the two intelligence operatives are convicted, 
Gadhafi will almost certainly escape prosecution, even though he is 
widely believed to have given the direct order that led to Pan Am 103's 
destruction. This fact alone demonstrates the intellectual and 
political poverty of the Administration's position.
    Inexplicably, only a few Members of Congress have even monitored, 
let alone opposed, the collapse of America's opposition to Libya's 
outrages. Nor has it been the subject of debate in the presidential 
campaign, at least until now. While the defendants on trial at Camp 
Zeist may ultimately be convicted, there is no prospect of adequate 
justice while Gadhafi remains untouched. Since that seems sadly likely, 
we need a larger debate about how America asserts its interests and 
protects its citizens from attack, by terrorists or anyone else. This 
requires an American posture that accepts military force rather than 
prosecution as the preferred response, that is willing and even 
inclined to respond unilaterally to be effective, and that has an 
attention span long enough to allow us to win through to vindication. 
Questions of international terrorism--and Libya particularly--fully 
warrant presidential campaign debate.

    Senator Brownback. Thank you very much, Mr. Bolton. I 
appreciate your comments too about holding the hearing. I think 
it is an important one. I worry about it in the specifics of 
the case of the victims. I worry about it in general in the 
case of what U.S. policy drift is doing toward rogue regimes 
around the world.
    Mr. Bolton, you stated that a number of steps have been 
taken toward normalizing the relationship between the United 
States and Libya. The Ambassador just ahead of you basically 
denied and stated--I am not sure how to really frame it other 
than we have not done that yet I guess would probably be the 
best way to categorize it.
    What items, what steps do you see that the administration 
has taken toward normalizing the relationship with Libya?
    Mr. Bolton. Well, I think certainly the consular visit was 
about as clear an example as you could get, that they were in 
there for a very brief period of time just to check the box 
that they had made a trip to Libya.
    I think also you have to look at what the administration 
has done over the course of events since August 1998 to try to 
move toward a suspension of Security Council sanctions. That 
was the first step that had to be undertaken because the next 
steps obviously, having achieved their objective in the 
multilateral arena, are now to deal with the ILSA sanctions and 
the other matters that Congress has been so involved in.
    But I fear that the pattern has already been laid out by 
Prime Minister Blair's Government. It is no secret, in 
conversations I have had with UK diplomats and others, that UK 
and U.S. policy on Libya is being very closely coordinated. The 
United Kingdom recently returned its Ambassador to Libya. The 
top British diplomat in the Foreign Office has just recently 
visited Libya, may still be there, looking for facilities and 
the other necessary administrative support to greatly expand 
the UK mission there. The entire European Union is moving back 
toward full diplomatic relations, and indeed, just a few months 
ago, we narrowly avoided the embarrassment of the head of the 
European Commission inviting Qadhafi to come to Brussels for 
consultations. There is no question that commercial interests 
in Europe are looking avidly at a substantial increase of 
investments in Libya once the sanctions really are lifted 
permanently. And we have already heard from officials of 
American companies, who I think are quite naturally pursuing 
their economic objectives, and do not want to see Europeans get 
business, who are not concerned with the larger policy issues 
that the Senate and the executive branch should be.
    All of this moves in the direction of recognition. This is 
a pattern I have seen in case after case as the United States 
moves from opposition to a regime toward full diplomatic 
recognition. No step is inevitable. I would not want to be 
heard to say that it is, and I think vociferous opposition from 
the Senate and from the House can have a major impact on the 
thinking at the State Department. At least it should. It always 
had a major impact when I was there, I can tell you that. I 
hope that this body and the other body continue their very 
close scrutiny of what is going on because it is not inevitable 
and it can be stopped.
    Senator Brownback. Ms. Bernstein, I asked the Ambassador a 
question about compensation discussions with the victim 
families and the State Department's involvement or putting 
forward any sort of level of compensation. Are you familiar 
with any of these discussions, and do you have any thoughts on 
the State Department's role in these discussions?
    Ms. Bernstein. I am not familiar with any of those 
discussions. I am not surprised. I would not be surprised to 
learn that there have been. As I indicated, in the meeting that 
took place in February, which I know was attended by a 
representative from Congressman Rahall's office, because he is 
one of the Congressmen who expressed an interest to traveling 
to Libya, this did come up.
    As I mentioned, I think it is a cynical attempt to buy the 
families off, and I think that it is perceived as kind of the 
last stumbling block, or one of the last stumbling blocks, 
before normal relations can be resumed. Although I cannot 
presume to speak for all the American families, I really do 
believe in my heart that family members are not going to be 
silenced in that way, and that is how I perceive this. It would 
be an attempt to silence us.
    Senator Brownback. To buy you off.
    Ms. Bernstein. Absolutely, absolutely.
    Senator Brownback. Well, let me thank both of you for 
coming here and particularly, Ms. Bernstein, for all that you 
have been through in this horrible episode in U.S. history, the 
worst air terrorism act in the history of the world that has 
occurred and the families that were torn apart through this and 
the grief and lack of resolution in the years that have ensued. 
I am hopeful we can continue to try to press toward getting 
real answers to what happened and people really responsible for 
it ultimately, all the way up the chain being held responsible 
for what happened to the families, which is ultimately what all 
of us want to get and want to see, that we do not just try to 
paper over something or pay off somebody in an effort to rush 
toward something that is going to prove in the end to be 
something of a bad move and a very bad mistake for the United 
States to re-engage this government that has shown no remorse, 
no resolution to say that this was wrong and that we are going 
to deal with it. You have my pledge for us to continue to 
proceed to get to the final justice of this matter.
    Ms. Bernstein. Thank you, and I appreciate the opportunity 
to speak to you this morning. I will convey what you have said 
to the family members I will be joining shortly to watch the 
trial proceeds today.
    Senator Brownback. Senator Torricelli.
    Senator Torricelli. Mr. Chairman, I do not have any 
questions only to express, much as you did, that Ms. Bernstein, 
your family is very fortunate that they have had in you such an 
advocate and articulate spokesperson to deal not only with the 
tragedy of your family but all of these families.
    Mr. Bolton, thank you as well for your analysis of the 
situation.
    It is an extraordinary thing that the United States entered 
the 20th century threatening war against Mr. Qadhafi's 
predecessors in North Africa because of the kidnapping of a 
single American woman. A century later, 293 people are murdered 
and we deal with it like it is an individual law enforcement 
problem. I do not know how we came to the circumstances where a 
plane or a ship of the United States can be destroyed and our 
citizens murdered and it is anything less than an act of war. 
It was a profound misjudgment in the Bush administration not to 
deal with this as an attack upon the United States. I trust 
there has been a lesson learned.
    One likes to think that in our country policy evolves and 
wisdom grows. Each generation before has dealt with these 
situations differently. This was, after all, with different 
technology at a different time, what brought the United States 
into World War I. Ships of the United States were attacked, and 
I might point out lesser numbers of lives were lost. The United 
States dealt with this as an attack upon our country.
    From the outset of this, no one has had any doubts that 
ultimately responsibility for this act was with the Libyan 
Government. It was not necessary to know who or how or under 
exactly what circumstances to know that this was an act of war 
against the United States and its Government. That is how it 
should have been dealt with. Indeed, as you pointed out, Mr. 
Bolton, that is how Ronald Reagan dealt with it. I trust a 
future American President, having seen the various lessons and 
how different administrations dealt with similar facts, will 
have a different resolve.
    But like our Chairman, Senator Brownback, I want you and 
each of the families to know, Ms. Bernstein, that we are not 
going to leave this matter either. Our eyes will be closely 
focused on how the administration deals with this issue, and we 
are not going away.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you, Senator Torricelli.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 11:33 a.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
